<html>
<title> - PROTECTING THE PROTECTORS: EXAMINING THE PERSONNEL CHALLENGES FACING THE FEDERAL AIR MARSHAL SERVICE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 PROTECTING THE PROTECTORS: EXAMINING THE PERSONNEL CHALLENGES FACING 
                    THE FEDERAL AIR MARSHAL SERVICE

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2009

                               __________

                           Serial No. 111-31

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
56-528 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California          PETER T. KING, New York
JANE HARMAN, California              LAMAR S. SMITH, Texas
PETER A. DeFAZIO, Oregon             MARK E. SOUDER, Indiana
ELEANOR HOLMES NORTON, District of   DANIEL E. LUNGREN, California
Columbia                             MIKE ROGERS, Alabama
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
SHEILA JACKSON EE, Texas             CHARLES W. DENT, Pennsylvania
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
CHRISTOPHER P. CARNEY, Pennsylvania  PAUL C. BROUN, Georgia
YVETTE D. CLARKE, New York           CANDICE S. MILLER, Mississippi
LAURA RICHARDSON, California         PETE OLSON, Texas
ANN KIRKPATRICK, Arizona             ANH ``JOSEPH'' CAO, Louisiana
BEN RAY LUJAN, New Mexico            STEVE AUSTRIA, Ohio
BILL PASCRELL, JR., New Jersey
EMMANUEL CLEAVER, Missouri
AL GREEN, Texas
JAMES A. HIMES, Connecticut
MARY JO KILROY, Ohio
ERIE J.J. MASSA, New York
DINA TITUS, Nevada
VACANCY

                    I. Lanier Avant, Staff Director

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Conner, Minority Staff Director

                                 ______

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             CHRISTOPHER P. CARNEY, Pennsylvania, Chairman

PETER A. DeFAZIO, Oregon             GUS M. BILIRAKIS, Florida
BILL PASCRELL, Jr, New Jersey        ANH ``JOSEPH'' CAO, Louisiana
AL GREEN, Texas                      DANIEL E. LUNGREN, California
MARY JO KILROY, Ohio                 PETER T. KING, New York, (ex 
BENNIE G. THOMPSON, Mississippi,     officio)
(ex officio)

                     Tamla T. Scott, Staff Director

                          Nikki Hadder, Clerk

                    Michael Russell, Senior Counsel

               Kerry Kinirons, Minority Subcommittee Lead

                                  (ii)









                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher P. Carney, a Representative in Congress 
  from the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight......................     1
The Honorable Gus M. Bilirakis, a Representative in Congress from 
  the State of Florida, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight......................     2
The Honorable Charles W. Dent, a Representative in Congress from 
  the State of Pennsylvania......................................    22
The Honorable Al Green, a Representative in Congress from the 
  State of Texas.................................................    24
The Honorable Mary Jo Kilroy, a Representative in Congress from 
  the State of Ohio..............................................    33
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  from the State of New Jersey...................................    21

                               WITNESSES

Mr. Jon Adler, National President, Federal Law Enforcement 
  Officers Association:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Robert Bray, Assistant Administrator/Director, Office of Law 
  Enforcement/Federal Air Marshal Service:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mr. Stephen Lord, Director, Homeland Security and Justice Issues, 
  Government Accountability Office:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9

                             FOR THE RECORD

The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................    42

 
 PROTECTING THE PROTECTORS: EXAMINING THE PERSONNEL CHALLENGES FACING 
                    THE FEDERAL AIR MARSHAL SERVICE

                              ----------                              


                        Thursday, July 23, 2009

             U.S. House of Representatives,
        Subcommittee on Management, Investigations,
                                     and Oversight,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:12 a.m., in 
Room 311, Cannon House Office Building, Hon. Christopher Carney 
[chairman of the subcommittee] presiding.
    Present: Representatives Carney, Pascrell, Green, Kilroy, 
and Bilirakis.
    Also present: Representative Dent.
    Mr. Carney. [Presiding.] The Subcommittee on Management, 
Investigations, and Oversight will come to order.
    The subcommittee is meeting today to receive testimony on 
protecting the protectors, examining the personnel challenges 
facing the Federal Air Marshal Service.
    And before I give my opening comments, I do want to 
acknowledge that Mr. Adler is not with us at the current time. 
He will be here shortly. There was a clerical error in a 
letter, an invitation letter, that had the wrong time. You guys 
are here at the intended time. To no fault of Mr. Adler's, he 
will be here as soon as he can. We are going to get started 
then.
    All right. The purpose of this hearing is to examine 
personnel and workforce issues within the Federal Air Marshal 
Service, or the FAMs. And before I go any further, I want to 
point out that, in 2008, 37 percent of all new hires of the 
Federal Air Marshal Service were veterans. I would like to 
commend you for this accomplishment.
    As a veteran myself, I am glad to see you value the skills 
of our men and women in uniform. I would encourage you to 
continue seeking qualified air marshals from their ranks.
    Federal air marshals are deployed on domestic and 
international flights to protect passengers and crew from harm. 
In the past, the FAM organization has struggled with numerous 
personnel issues that have impacted morale and caused the 
agency public embarrassment.
    Recently, it appears, improvements have been made. And that 
said, I am interested in learning about what has been done to 
overcome past challenges. Also, I am particularly interested in 
hearing your thoughts as to whether or not there is room for 
further improvement.
    I know that members have questions on a number of topics 
today, including polices aimed at improving air marshal 
anonymity, steps that have been put in place to foster better 
communication between line-level air marshals and management, 
and the need to implement consistent guidance on disciplinary 
actions that the entire FAMS, including field officers, are to 
follow.
    Lastly, on July 9, 2009, the full committee marked up and 
approved H.R. 1881, the Transportation Security Workforce 
Enhancement Act of 2009. This bill will bring all TSA 
employees, including air marshals, under Title 5 of the U.S. 
code.
    What that means is that their pay structure will eventually 
be the same as General Service, or G.S., and the G.S. structure 
that exists in other federal agencies. And I will be interested 
in hearing how this legislation brings more fairness and equity 
into the FAMs system.
    I thank the witnesses for their participation in today's 
hearing, and I look forward to hearing Mr. Bray, Mr. Lord, and 
Mr. Adler.
    I now turn it over to my ranking member, Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much.
    I would like to welcome our witnesses here today. I am 
pleased the subcommittee is meeting to consider personnel 
issues at the Federal Air Marshal Service. Air marshals provide 
a vital layer of defense in our transportation security amid 
challenging circumstances.
    I appreciated the opportunity to meet with both Director 
Bray and Mr. Adler last week. And I am impressed with the 
efforts taken by the Federal Air Marshal Service to address 
employee concerns and further enhance security.
    I think many of the initiatives instituted by the Federal 
Air Marshal Service, such as the listening sessions and the Web 
site for anonymous employee feedback, should be considered as 
best practices for other Department of Homeland Security 
components.
    I look forward to our witnesses' testimony today. I am 
specifically interested in hearing about the initiatives that 
FAMS plans to implement in fiscal year 2010 to further enhance 
the service.
    I would also like to hear our witnesses' thoughts on 
providing criminal investigative training to air marshals. I 
believe that providing this training, which used to be provided 
to air marshals prior to September 11th to the attacks, will 
have the dual effect of enhancing both the skills and morale of 
air marshals.
    That is why I supported Congressman Lungren's amendment to 
the Transportation Security Authorization Act that would have 
required this training for all air marshals and provided 
funding for the FAMs in fiscal years 2010 and 2011 to implement 
the requirements.
    I was disappointed that this important amendment was 
defeated on a party-line vote. I hope our witnesses can 
convince my Democratic colleagues of the importance of this 
training and we can work together to authorize it.
    And I thank you, Mr. Chairman. I yield back the balance of 
my time.
    Mr. Carney. Thank you. Okay, since the full committee 
chairman is not here, I will move on.
    Other members of this subcommittee are reminded that, under 
committee rules, opening statements may be submitted for the 
record.
    I welcome our witnesses. Our first witness is Director 
Robert S. Bray. Mr. Bray became TSA's assistant administrator 
for law enforcement and director of the Federal Air Marshal 
Service in June of 2008. He began his career with the Federal 
Air Marshal Service on May 5, 2003, as the assistant special 
agent in charge of the mission operations center at the FAA 
Technical Center in Atlantic City, New Jersey.
    In November of 2003, Mr. Bray was appointed as the deputy 
assistant director for the Office of Training and Development 
and subsequently selected as the assistant director, Office of 
Security Services and Assessments, in March of 2006.
    During his 20-year career with the United States Secret 
Service, he was assigned to offices in Denver, Colorado, Palm 
Springs, California, Tulsa, Oklahoma, and Washington, D.C. Mr. 
Bray served as supervisor of the Vice Presidential Protective 
Division under Vice President Gore and as a supervisor on the 
Presidential Protective Division under President Clinton and 
President Bush.
    Mr. Bray, as a special agent in charge of the Office of 
Administration, United States Secret Service, supervised the 
development and execution of the annual budget for the Secret 
Service. Mr. Bray began his law enforcement career as a police 
officer for the metro Dade police department in Miami, Florida. 
He then worked as a police agent for the Lakewood, Colorado, 
police department prior to his appointment to the United States 
Secret Service. He holds a bachelor's of science degree in 
criminology from Florida State University.
    Our second witness is Mr. Stephen Lord, a director in the 
Government Accountability Office, homeland security and justice 
team. Mr. Lord is responsible for directing numerous GAO 
engagements on aviation and surface transportation issues.
    In September of 2008, while completing GAO's executive 
development program, Mr. Lord testified before a House homeland 
security subcommittee on TSA's progress in introducing the TWIC 
biometric identification card in the maritime sector.
    In March 2009, he also testified before a House homeland 
security subcommittee on TSA's progress and challenges in 
meeting the statutory mandate for screening air cargo on 
passenger aircraft.
    Before his appointment to the SES, he led GAO's work on 
Iraq reconstruction and was a key member of a 2007 Iraq 
benchmarks assessment team and received a GAO integrity award 
for exceptional analysis of the Iraq governance progress and 
meeting 18 legislative, security and economic benchmarks.
    Mr. Lord is a recipient of multiple GAO awards for 
meritorious service, outstanding achievement, and teamwork. He 
holds a B.A. in foreign affairs from the University of Virginia 
and MBA from George Mason University and an M.S. in national 
security studies from the National War College. He also 
completed his senior executive fellows program at Harvard 
University's John F. Kennedy School of Government in May 2008.
    Our third and final witness is Mr. Jon Adler.
    And, Mr. Adler, thank you for being here. We had a mix up 
with the letters, the wrong time. The invitation letter 
actually had the wrong starting time on it that went out. I 
appreciate you coming and making it here. So thank you so much 
for being here.
    Mr. Adler is the national president of the Federal Law 
Enforcement Officers Association. Mr. Adler began his law 
enforcement career as a revenue officer in 1991 and became a 
special agent with the IRS criminal investigation division 
shortly thereafter.
    He has spent most of his career in the southern district of 
New York working a variety of criminal investigations. At the 
end of 1999, he was selected as a resident lead instructor for 
use-of-force training at the Federal Law Enforcement Training 
Center.
    After serving as an acting use-of-force program manager, 
Mr. Adler joined the United States attorney's office in the 
southern division of New York as a criminal investigator. He is 
presently assigned to the major crimes unit.
    Mr. Adler has been an active member of FLEOA for over 14 
years and also a member of the International Law Enforcement 
Educators and Trainers Association. Prior to his election as 
the national president, Mr. Adler served as FLEOA's national 
board as executive vice president, first vice president, and 
secretary.
    Jon also served as an officer in the Glyrico chapter, as 
well as the agency president for the United States attorney's 
office members. In addition to his investigative duties, Mr. 
Adler continues to serve as the use-of-force coordinator for 
the U.S. attorney's office criminal investigators in the 
southern division of New York.
    And without objection, the full witnesses--the witnesses' 
full statements will be inserted into the record.
    And I now ask each witness to summarize.
    Mr. Bilirakis. Mr. Chairman?
    Mr. Carney. Yes? Yes, Mr. Bilirakis?
    Mr. Bilirakis. Mr. Chairman, yes. I would like to ask 
unanimous consent for Congressman Dent, ranking member of the 
Transportation Security and Infrastructure Protection 
Subcommittee, to join us to question the witnesses today.
    Mr. Carney. Without objection, so ordered.
    Mr. Bilirakis. Thank you.
    Mr. Carney. Mr. Bray, if you would like to start, please.

          STATEMENT OF ROBERT BRAY, DIRECTOR, FEDERAL 
 AIR MARSHAL SERVICE, TRANSPORTATION SECURITY ADMINISTRATION, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Bray. Thank you.
    Good morning, Chairman Carney, Representative Bilirakis, 
and distinguished members of the subcommittee. I am privileged 
to appear before you today to discuss the role of the Federal 
Air Marshal Service, FAMS, within TSA and DHS.
    I would like to thank the subcommittee for this 
opportunity. I appreciate your support and the support of the 
full committee, and I look forward to continuing our 
partnership in the future.
    No one who remembers 9/11 disputes the importance of our 
mission. Mr. Chairman, we can only accomplish this mission 
because of the outstanding men and women of the Federal Air 
Marshal Service. The stand-up of the FAMS was an unprecedented 
undertaking. The Federal Air Marshal Service grew from 33 
people under the FAA to a full-fledged federal law enforcement 
organization at TSA, with thousands of men and women deployed 
now as we speak on flights across the United States and around 
the world.
    We have come a long way in a few short years, and we are 
fully committed to further progress. The millions of passengers 
who fly safely each year benefit from the robust flight 
coverage that FAMS provide.
    FAMS provide this flight coverage on a 24/7 basis. In 
addition to active participation, an FBI-led joint terrorism 
task force and detail assignments at the National 
Counterterrorism Center, federal air marshals are also part of 
visible intermodal prevention and response teams, a TSA program 
specifically authorized by the 9/11 Commission Act.
    VIPR teams move around in any part of the transportation 
sector and show up without being announced. They are a good 
example of security activity that brings together assets from a 
variety of states, local and federal entities and coordinate 
action to protect the homeland.
    I would like to thank--I would like to especially 
acknowledge the support of the Federal Law Enforcement Officers 
Association, which is helping us build the FAMS organization 
for the future. Without the support of FLEOA, we could not be 
this successful organization we are today.
    We are now in a maturation period for FAMS. And my goal is 
to work with all employees to continue to build the 
institutions, create a more open, inclusive, and responsive 
organization, and continue the blueprint for the future.
    As part of that process, we have developed 36 working 
groups representing personnel in all workforce categories. All 
employees have great ideas on a myriad of issues, including 
quality of life, mission scheduling, performance and personnel 
standards, voluntary lateral transfers, and medical issues.
    The contributions of these 300 field and non-headquarters 
personnel have led to major policy changes and significantly 
improved the quality of life for our workforce. I am very proud 
of their work.
    The progress we have made is validated by the GAO's recent 
report. The GAO recognized the FAMS operational approach to 
achieving our core mission and our positive actions to address 
issues affecting our workforce. I believe we are succeeding in 
changing our culture for the better for our workforce.
    The feedback I receive from the FAMs I speak with in 
listening sessions, working groups, our FAM adviser council, 
and in the many meals I have shared with transiting FAMS 
provides the best validation of our program.
    Mr. Chairman, any organization is only as good as its 
people. The men and women of the FAMS are our most valuable 
asset. I am committed to continuing to seek out the views of 
our people at all levels. Their involvement is critical to 
helping us achieve our goals and sustain our forward progress.
    I would like to reiterate my desire to work with this 
subcommittee as policy and personnel matters are discussed, and 
I will be happy to respond to any questions you and the members 
of the subcommittee may have.
    Thank you.
    [The statement of Mr. Bray follows:]

                   Prepared Statement of Robert Bray

    Good morning Chairman Carney, Representative Bilirakas, and 
distinguished members of the Subcommittee. It is my privilege to appear 
before you today to discuss the recent progress in workforce issues of 
the Federal Air Marshal Service (FAMS), within the Transportation 
Security Administration (TSA), Department of Homeland Security (DHS).
    I would like to thank the Subcommittee for this opportunity to 
discuss the Federal Air Marshal Service. We look forward to continuing 
our partnership on this and other issues in the coming year.
    In the hectic days after 9/11, the FAMS was reorganized and grew 
significantly. Standing up the FAMS--from the 33 marshals under the 
Federal Aviation Administration (FAA) to thousands under TSA--was an 
unprecedented undertaking. We have come a long way since then in 
maturing our organization, and we are committed to further progress. 
The millions of people who fly safely each year are the beneficiaries 
of the robust flight coverage that FAMS provides.
    I was honored to be named as Director of the Federal Air Marshal 
Service just over one year ago. Today's Federal Air Marshal Service is 
a full-fledged Federal law enforcement organization with men and women 
deployed throughout the United States and on U.S.-flagged commercial 
air carriers throughout the world. The FAMS have state-of-the-art 
training facilities to provide an intense training experience for our 
air marshals. In addition, the FAMS is a vital partner with other TSA 
offices and local law enforcement agencies in the Visible Intermodal 
Prevention and Response (VIPR) program, which was specifically 
authorized by the Implementing Recommendations of the 9/11 Commission 
Act.
    The FAMs that participate in TSA's VIPR Team activities are a key 
part of TSA's strategy to help prevent a terrorist attack, similar to 
the attacks on mass transit in Madrid and London, through risk-based, 
targeted deployment of integrated TSA assets in coordination with 
Federal, State and local officials. Recent partner and public feed-back 
has been positive regarding the VIPR program's effect on promoting 
public confidence in the transportation system and improving security 
across all U.S. modes of transportation. VIPR Teams are deployed 
throughout the United States hundreds of times each year across 
multiple transportation modes, and we expect to more than double the 
number of operational VIPR teams in the coming years.
    The FAMS daily mission is an inherently difficult one. Federal Air 
Marshals frequently fly long-haul domestic and international routes, 
constantly experiencing the consequences of consistently changing duty 
hours and frequent adjustments to circadian rhythms. This, along with 
uncontrollable flight delays, impacts the FAMs' quality of life and 
ultimately, what it means to be a Federal Air Marshal.
    We can meet these workforce challenges and still perform at a high 
caliber. FAMS has improved its operating procedures to better retain 
Federal Air Marshals, and at the same time has enhanced TSA's ability 
to respond to emergent situations around the world. For example, in the 
aftermath of Hurricane Katrina, the FAMS moved in to secure the airport 
in New Orleans and was instrumental in evacuating hundreds of victims. 
Or, as another example, in response to the discovery in the United 
Kingdom of a plot to use liquid explosives to take down passenger 
aircraft bound for the United States, the FAMS, in coordination with 
other TSA units, responded with unprecedented speed to conduct a range 
of new missions to combat the threat and help instill confidence in the 
security of commercial aviation.
    In order to continue to support our air marshals in a stressful and 
ever-evolving workplace environment, we have committed to fostering an 
open and responsive environment for our employees, and to providing 
them with the best possible tools and communication channels. The FAMS 
has assembled employee working groups, increased human resource (HR) 
efficiencies, and enhanced career advancement opportunities.
    Our employee working groups have been particularly successful. 
These groups, made up of personnel in all workforce categories 
throughout the FAMS organization, were asked to evaluate concerns and 
propose solutions on a myriad of issues including quality of life, 
mission scheduling, performance and on-duty personal appearance 
guidelines, use of hotels while on mission status, voluntary lateral 
transfers, and medical issues. To date, the contribution of these 36 
working groups and approximately 300 field and non-headquarters 
personnel have led to some very positive policy changes. For example, 
to address mission scheduling issues, we have improved scheduling 
consistency, instituted more consistent start times, limited the number 
of flight days per roster period, and increased rest following extended 
international missions. To address some of the performance and quality 
of life issues, we have eliminated the dress code policy, allowed for 
hotel self-selection, and created the FAMS Voluntary Lateral Transfer 
Program, which has allowed 200 FAMs to voluntarily transfer to the 
field office of their choosing. In the medical arena, we are developing 
a proposal to conduct large scale research on the implications of FAM 
scheduling practices on fatigue, mental acuity, and risk for sleep 
disorders. The study will include a wellness education component along 
with the development of a risk assessment tool to identify personnel at 
risk for sleep disorders. These changes have significantly improved the 
quality of life for our workforce and their families.
    Our efforts have been validated by the Government Accountability 
Office (GAO) in a recent report (GAO-09-273). In particular, the GAO 
recognized the successful FAMS operational approach to achieving its 
core mission and the positive actions taken to address policies and 
practices in its workforce. As part of its research, GAO visited 11 
field offices, interviewed large numbers of rank-and-file FAMS 
employees, and conducted a comprehensive review of all operations and 
administrative services over the course of 20 months. The GAO's 
findings were encouraging. In addition, more anecdotally but 
nevertheless encouragingly, the feedback I have personally received 
from Air Marshals in listening sessions, working groups, our FAM 
Advisory Council and even via our anonymous mailbox all confirms that 
our organization has made progress in boosting employee morale. I 
believe we are succeeding in improving the culture for our workforce.
    TSA has implemented a new human resources service provider to 
promote more efficient and streamlined business practices. 
Specifically, all recruitment, hiring and staffing, personnel and 
payroll processing, employee benefits, and personnel-related help desk 
functions are now administered by TSA's Office of Human Capital. 
Previously, these human resource functions were administered through a 
separate staff within TSA's Office of Law Enforcement in conjunction 
with a private contractor. In an effort to further enhance workforce 
satisfaction, the FAMS has also established a successful internal 
promotion process to select the best and brightest candidates for J-
band (supervisory) Federal Air Marshal career opportunities. We also 
encourage qualified Transportation Security Officers and TSA Security 
Inspectors to apply for FAMS positions, and I am pleased that a number 
of them have been selected to join the FAMS ranks.
    The men and women of the FAMS are our most valuable asset. I am 
committed to continuing to seek out the views of our employees at all 
levels. Their direct and candid involvement is critical to help us 
achieve our goals and objectives to detect, deter and defeat terrorism.
    Mr. Chairman, thank you again for scheduling this hearing and for 
the opportunity to testify. I would like to reiterate my desire to work 
with this Subcommittee as policy and personnel matters are discussed, 
and I will be happy to respond to any questions you and the members of 
the Subcommittee may have.

    Mr. Carney. Thank you, Mr. Bray.
    I now recognize Mr. Lord to summarize his statement for 5 
minutes.

  STATEMENT OF STEPHEN LORD, DIRECTOR, HOMELAND SECURITY AND 
        JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Lord. Mr. Chairman and members of the committee, thank 
you for inviting me here today to this important hearing on the 
Federal Air Marshal Service, or FAMS. My statement highlights 
the findings of our January 2009 report with some selective 
updates. I would now like to discuss some of the key points.
    First, our January 2009 report discussed FAMS's operational 
approach, its so-called concept of operations for deploying air 
marshals on flights considered higher risk. Since it is not 
feasible for FAMS to cover the almost 29,000 daily flights 
operated by U.S. airlines, FAMS uses a risk-based approach for 
assigning air marshals to higher-risk flights.
    And these flights include those in and out of the National 
Capital Region and nonstop long-distance flights, such as those 
targeted by the 9/11 hijackers.
    It is important to note that federal air marshals also have 
ground-based responsibilities. For example, they participate in 
the so-called VIPR teams, visible intermodal prevention and 
response teams, that provide ground-based security. In the 
first quarter of this fiscal year, about 40 percent of these 
VIPR deployments were conducted in non-aviation areas, such as 
mass transit and maritime facilities.
    Second, we found that FAMS's previous director undertook a 
number of efforts to address workforce-related issues, and 
these improvement efforts produced some positive results. For 
example, to help ensure anonymity of its air marshals, FAMS 
amended its check-in boarding procedures.
    To help address health concerns, FAMS now allows more 
flexibility in scheduling work dates and rest breaks. And to 
help improve workforce quality of life, FAMS implemented a 
lateral transfer program.
    Third, FAMS's plans to conduct a workforce survey every 2 
years, building on the survey that it conducted in 2007. We 
reviewed the results of the survey and found that a majority of 
respondents indicated there had been positive changes 
undertaken from their prior year.
    However, the overall response rate was 46 percent. This is 
substantially less than the 80 percent response rate encouraged 
by the Office of Management and Budget in its federal survey.
    Our report also found that the potential usefulness of 
future surveys could be enhances by ensuring that the survey 
questions and the answer options are clear and unambiguous. In 
a few cases, they combine multiple questions into a single 
survey question, making it difficult to answer it clear.
    Today's hearing is an opportunity to clarify FAMS's plans 
for conducting an additional workforce survey. Will it be this 
year or later? And what steps will FAMS take to ensure a higher 
response rate?
    Finally, it is clear that FAMS has made progress in 
addressing various operational and quality-of-life issues that 
affect the ability of its air marshals to perform their 
mission. In addition, Mr. Bray has expressed a commitment to 
continue these improvement efforts.
    However, today's hearing also provides an opportunity to 
discuss other related oversight issues related to FAMS. First, 
how can FAMS strike the proper balance between meeting its in-
flight responsibilities and supporting new ground-based 
responsibilities, such as VIPR?
    And, second, how do you really measure FAMS's success? What 
performance measure is being used to gauge their effectiveness? 
Because to be most effective, as you know, FAMS operate--they 
are largely invisible to the flying public.
    And, third, what is the best way to balance operational 
needs with a healthy work-life balance? You have to consider 
both factors when assessing these improvements initiatives.
    And, Mr. Chairman, that concludes my statement. I look 
forward to any questions that you or any other members of the 
committee may have.
    Thank you.
    [The statement of Mr. Lord follows:]

                    Prepared Statement of Steve Lord

    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here today to discuss the Federal Air Marshal 
Service (FAMS), which has a core mission of deploying trained and armed 
federal air marshals to provide an onboard security presence on 
selected flights operated by U.S. commercial passenger air carriers. 
The agency's cadre of air marshals grew significantly in response to 
the terrorist attacks of September 11, 2001 (9/11), and pursuant to the 
Aviation and Transportation Security Act.\1\ Nonetheless, as noted in 
our January 2009 report,\2\ because the total number of air marshals is 
less than the approximately 29,000 domestic and international flights 
operated daily by U.S. commercial passenger air carriers,\3\ FAMS 
routinely must determine which flights are to be provided an onboard 
security presence. To facilitate making these decisions, FAMS developed 
an operational approach--commonly referred to as the agency's concept 
of operations--for deploying air marshals on selected flights. As 
further noted in our January 2009 report, FAMS also faces challenges in 
addressing various operational and quality-of-life issues that affect 
the ability of air marshals to carry out the agency's mission. Such 
issues range, for example, from maintaining anonymity during aircraft 
boarding procedures to mitigating the various health concerns 
associated with frequent flying.
---------------------------------------------------------------------------
    \1\ See Pub. L. No. 107-71, Sec. 105, 115 Stat. 597, 606-08 (2001) 
(codified as amended at 49 U.S.C. Sec. 44917).
    \2\ GAO, Aviation Security: Federal Air Marshal Service Has Taken 
Actions to Fulfill Its Core Mission and Address Workforce Issues, but 
Additional Actions Are Needed to Improve Workforce Survey, GAO-09-273 
(Washington, DC.: Jan. 14, 2009).
    \3\ The specific number of federal air marshals is classified.
---------------------------------------------------------------------------
    With selected updates as of July 2009, this statement summarizes 
information presented in our January 2009 report, which addressed the 
following questions:
        <bullet> What is FAMS's operational approach for achieving its 
        core mission of providing an onboard security presence for 
        flights operated by U.S. commercial passenger air carriers?
        <bullet> To what extent has FAMS's operational approach for 
        achieving its core mission been independently assessed?
        <bullet> To what extent does FAMS have processes and 
        initiatives in place to address issues that affect the ability 
        of its workforce to carry out its mission?
    Also, as you further requested, this statement presents information 
on possible oversight issues related to FAMS.
    To address the questions, we reviewed (1) relevant legislation 
regarding FAMS's mission, (2) the agency's policies and other 
documentation regarding the strategy and concept of operations for 
carrying out that mission, (3) a July 2006 classified report prepared 
by the Homeland Security Institute based on its independent evaluation 
of FAMS's concept of operations,\4\ and (4) documentation regarding 
various working groups and other initiatives that FAMS had established 
to address issues that affect the ability of air marshals to carry out 
the agency's mission. Also, we interviewed FAMS headquarters officials 
and visited 11 of the agency's 21 field offices, where we interviewed 
managers and a total of 67 air marshals. We selected the 11 field 
offices and the 67 air marshals based on nonprobability sampling, which 
is a method of sampling where observations are selected in a manner 
that is not completely random, generally using specific characteristics 
of the population as criteria. Results from a nonprobability sample 
cannot be used to make inferences about an entire population because 
some elements of the population being studied had no chance or an 
unknown chance of being selected as part of the sample. However, the 
interviews provided a broad overview of issues important to air 
marshals. More details about the scope and methodology of our work to 
address the questions are presented in appendix I of our January 2009 
report.\5\ In conducting work in July 2009 for this statement, we 
requested updated information from the Transportation Security 
Administration (TSA), contacted the Department of Homeland Security 
(DHS) Office of Inspector General to discuss its FAMS-related audits or 
inspections, and (3) reviewed FAMS budget data for fiscal years 2009 
and 2010.
---------------------------------------------------------------------------
    \4\ The Homeland Security Institute is a federally funded research 
and development center established pursuant to the Homeland Security 
Act of 2002. See Pub. L. No. 107-296, Sec. 312, 116 Stat. 2135, 2176, 
as amended. The institute's mission is to assist the Department of 
Homeland Security in addressing relevant issues requiring scientific, 
technical, and analytical expertise. In March 2009, the institute's 
name was changed to Homeland Security studies and analysis Institute 
(with a logo expressed as HSsaI). In this testimony, we use the former 
name, which was applicable at the time of our review of FAMS.
    \5\ See GAO-09-273.
---------------------------------------------------------------------------
    We conducted the work for this statement in July 2009 in accordance 
with generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.

Background
    FAMS was originally established as the Sky Marshal program in the 
1970s to counter hijackers. In response to 9/11, the Aviation and 
Transportation Security Act expanded FAMS's mission and workforce and 
mandated the deployment of federal air marshals on high-security risk 
flights. Within the 10-month period immediately following 9/11, the 
number of air marshals grew significantly. Also, during subsequent 
years, FAMS underwent various organizational transfers. Initially, FAMS 
was transferred within the Department of Transportation from the 
Federal Aviation Administration to the newly created TSA. In March 
2003, FAMS moved, along with TSA, to the newly established DHS. In 
November 2003, FAMS was transferred to U.S. Immigration and Customs 
Enforcement (ICE). Then, about 2 years later, FAMS was transferred back 
to TSA in the fall of 2005.\6\
---------------------------------------------------------------------------
    \6\ The transfer of FAMS to ICE was based partly on the assumptions 
that (1) air marshals would be afforded a broader career path by cross-
training with ICE's investigative division and (2) ICE's special agents 
could provide a surge capability by serving as supplemental air 
marshals, if needed. See GAO, Aviation Security: Federal Air Marshal 
Service Is Addressing Challenges of Its Expanded Mission and Workforce, 
but Additional Actions Needed, GAO-04-242 (Washington, D.C.: Nov. 19, 
2003).
---------------------------------------------------------------------------
    FAMS deploys thousands of federal air marshals to a significant 
number of daily domestic and international flights. In carrying out 
this core mission of FAMS, air marshals are deployed in teams to 
various passenger flights.\7\ Such deployments are based on FAMS's 
concept of operations, which guides the agency in its selection of 
flights to cover. Once flights are selected for coverage, FAMS 
officials stated that they must schedule air marshals based on their 
availability,\8\ the logistics of getting individual air marshals in 
position to make a flight, and applicable workday rules.\9\
---------------------------------------------------------------------------
    \7\ The specific number of air marshals assigned to an onboard 
team, whether for a domestic flight or an international flight, may 
vary depending on such factors as duration of the flight, the type of 
aircraft, the departure and destination cities, and awareness of 
specific threat information.
    \8\ In determining air marshals' availability, FAMS officials 
stated that they must consider such factors as training requirements, 
other ground-based duties, and annual leave plans.
    \9\ ``Workday rules'' refer to the parameters that FAMS uses for 
assigning air marshals to flights. As applicable to nonovernight 
missions, for example, FAMS tries to assign air marshals to flights (or 
combinations of flights) that will return the air marshals home during 
a scheduled 10-hour workday.
---------------------------------------------------------------------------
    At times, air marshals may have ground-based assignments. On a 
short-term basis, for example, air marshals participate in Visible 
Intermodal Prevention and Response (VIPR) teams, which provide security 
nationwide for all modes of transportation. After the March 2004 train 
bombings in Madrid, TSA created and deployed VIPR teams to enhance 
security on U.S. rail and mass transit systems nationwide. Comprised of 
TSA personnel that include federal air marshals--as well as 
transportation security inspectors, transportation security officers, 
behavioral detection officers, and explosives detection canines--the 
VIPR teams are intended to work with local security and law enforcement 
officials to supplement existing security resources, provide a 
deterrent presence and detection capabilities, and introduce an element 
of unpredictability to disrupt potential terrorist activities.
    FAMS's budget request for fiscal year 2010 is $860.1 million, which 
is an increase of $40.6 million (or about 5 percent) over the $819.5 
million appropriated in fiscal year 2009. The majority of the agency's 
budget provides for the salaries of federal air marshals and supports 
maintenance of infrastructure that includes 21 field offices.

FAMS's Operational Approach to Achieving Its Core Mission Is Based on 
Risk-Related Factors
    FAMS's operational approach (concept of operations) for achieving 
its core mission is based on assessments of risk-related factors, since 
it is not feasible for federal air marshals to cover all of the 
approximately 29,000 domestic and international flights operated daily 
by U.S. commercial passenger air carriers. Specifically, FAMS considers 
the following risk-related factors to help ensure that high-risk 
flights operated by U.S. commercial carriers--such as the nonstop, 
long-distance flights targeted on 9/11--are given priority coverage by 
federal air marshals:\10\
---------------------------------------------------------------------------
    \10\ Under this approach, FAMS categorizes each of the 
approximately 29,000 daily flights into risk categories--high risk or 
lower risk.
---------------------------------------------------------------------------
        <bullet> Threat (intelligence): Available strategic or tactical 
        information affecting aviation security is considered.\11\
---------------------------------------------------------------------------
    \11\ FAMS considers ``threat'' and ``intelligence'' as separate 
risk-related factors.
---------------------------------------------------------------------------
        <bullet> Vulnerabilities: Although FAMS's specific definition 
        is designated sensitive security information, DHS defines 
        vulnerability as a physical feature or operational attribute 
        that renders an entity open to exploitation or susceptible to a 
        given hazard.
    <bullet> Consequences: FAMS recognizes that flight routes over 
certain geographic locations involve more potential consequences than 
other routes.
    FAMS attempts to assign air marshals to provide an onboard security 
presence on as many of the flights in the high-risk category as 
possible.\12\ FAMS seeks to maximize coverage of high-risk flights by 
establishing coverage goals for 10 targeted critical flight categories. 
In order to reach these coverage goals, FAMS uses a scheduling process 
to determine the most efficient flight combinations that will allow air 
marshals to cover the desired flights. FAMS management officials 
stressed that the overall coverage goals and the corresponding flight 
schedules of air marshals are subject to modification at any time based 
on changing threat information and intelligence. For example, in August 
2006, FAMS increased its coverage of international flights in response 
to the discovery, by authorities in the United Kingdom, of specific 
terrorist threats directed at flights from Europe to the United States. 
FAMS officials noted that a shift in resources of this type can have 
consequences because of the limited number of air marshals. The 
officials explained that international missions require more resources 
than domestic missions partly because the trips are of longer duration.
---------------------------------------------------------------------------
    \12\ FAMS's criteria for determining high-risk flights are 
classified. In part, FAMS's determinations are guided by the provisions 
of the Aviation and Transportation Security Act that specify the 
deployment of federal air marshals on flights presenting high security 
risks, such as the nonstop, long-distance flights targeted on 9/11.
---------------------------------------------------------------------------
    In addition to the core mission of providing an onboard security 
presence on selected flights, FAMS also assigns air marshals to VIPR 
teams on an as-needed basis to provide a ground-based security 
presence. For the first quarter of fiscal year 2009, TSA reported 
conducting 483 VIPR operations, with about 60 percent of these 
dedicated to ground-based facilities of the aviation domain (including 
air cargo, commercial aviation, and general aviation) and the remaining 
VIPR operations dedicated to the surface domain (including highways, 
freight rail, pipelines, mass transit, and maritime). TSA's budget for 
fiscal year 2009 reflects support for 225 VIPR positions at a cost of 
$30 million. TSA plans to significantly expand the VIPR program in 
fiscal year 2010 by adding 15 teams consisting of 338 positions at a 
cost of $50 million. However, questions have been raised about the 
effectiveness of the VIPR program. In June 2008, for example, the DHS 
Office of Inspector General reported that although TSA has made 
progress in addressing problems with early VIPR deployments, it needs 
to develop a more collaborative relationship with local transit 
officials if VIPR exercises are to enhance mass transit security.\13\
---------------------------------------------------------------------------
    \13\ Department of Homeland Security, Office of Inspector General, 
TSA's Administration and Coordination of Mass Transit Security 
Programs, OIG-08-66 (Washington, D.C.: June 12, 2008).

    An Independent Assessment Concluded That FAMS's Approach for 
Achieving Its Core Mission Was Reasonable; Recommendations for 
Enhancing the Approach Are Being Implemented
    After evaluating FAMS's operational approach for providing an 
onboard security presence on high-risk flights, the Homeland Security 
Institute, a federally funded research and development center, reported 
in July 2006 that the approach was reasonable.\14\ In its report, the 
Homeland Security Institute noted the following regarding FAMS's 
overall approach to flight coverage:
---------------------------------------------------------------------------
    \14\ Much of the specific information in the report is classified.
---------------------------------------------------------------------------
        <bullet> FAMS applies a structured, rigorous approach to 
        analyzing risk and allocating resources.
        <bullet> The approach is reasonable and valid.
        <bullet> No other organizations facing comparable risk-
        management challenges apply notably better methodologies or 
        tools.
    As part of its evaluation methodology, the Homeland Security 
Institute examined the conceptual basis for FAMS's approach to risk 
analysis. Also, the institute examined FAMS's scheduling processes and 
analyzed outputs in the form of ``coverage'' data reflecting when and 
where air marshals were deployed on flights. Further, the Homeland 
Security Institute developed and used a model to study the implications 
of alternative strategies for assigning resources. We reviewed the 
institute's evaluation methodology and generally found it to be 
reasonable.
    Although the institute's July 2006 report concluded that FAMS's 
operational approach was reasonable and valid, the report also noted 
that certain types of flights were covered less often than others. 
Accordingly, the institute made recommendations for enhancing the 
operational approach. For example, the institute recommended that FAMS 
increase randomness or unpredictability in selecting flights and 
otherwise diversify the coverage of flights.
    To address the Homeland Security Institute's recommendations, FAMS 
officials stated that a broader approach for determining which flights 
to cover has been implemented--an approach that opens up more flights 
for potential coverage, provides more diversity and randomness in 
flight coverage, and extends flight coverage to a variety of airports. 
Our January 2009 report noted that FAMS had implemented or had ongoing 
efforts to implement the institute's recommendations. We reported, for 
example, that FAMS is developing an automated decision-support tool for 
selecting flights and that this effort is expected to be completed by 
December 2009.

    FAMS Has Taken Positive Actions to Address Issues Affecting Its 
Workforce and to Help Ensure Continued Progress
    To better understand and address operational and quality-of-life 
issues affecting the FAMS workforce, the agency's previous Director--
who served in that capacity from March 2006 to June 2008--established 
various processes and initiatives. Chief among these were 36 issue-
specific working groups to address a variety of topics, such as 
tactical policies and procedures, medical or health concerns, 
recruitment and retention practices, and organizational culture. Each 
working group typically included a special agent-in-charge, a subject 
matter expert, air marshals, and mission support personnel from the 
field and headquarters. According to FAMS management, the working 
groups typically disband after submitting a final report, but 
applicable groups could be reconvened or new groups established as 
needed to address relevant issues. The previous Director also 
established listening sessions that provided a forum for employees to 
communicate directly with senior management and an internal Web site 
for agency personnel to provide anonymous feedback to management. 
Another initiative implemented was assigning an air marshal to the 
position of Ombudsman in October 2006 to provide confidential, 
informal, and neutral assistance to employees to address workplace-
related problems, issues, and concerns.
    These efforts have produced some positive results. For example, as 
noted in our January 2009 report, FAMS amended its policy for airport 
check-in and flight boarding procedures (effective May 15, 2008) to 
better ensure the anonymity of air marshals in mission status.\15\ In 
addition, FAMS modified its mission scheduling processes and 
implemented a voluntary lateral transfer program to address certain 
issues regarding air marshals' quality of life--and has plans to 
further address health issues associated with varying work schedules 
and frequent flying. Also, our January 2009 report noted that FAMS was 
taking steps to procure new personal digital assistant communication 
devices--to replace the current, unreliable devices--and distribute 
them to air marshals to improve their ability to communicate 
effectively with management while in mission status.\16\
---------------------------------------------------------------------------
    \15\ FAMS's changes to check-in and boarding procedures concern air 
marshals' interactions with airline personnel. FAMS's policy continues 
to require air marshals to adhere to established TSA regulations and 
locally established airport procedures.
    \16\ In July 2009, the DHS Office of Inspector General informed us 
that it was initiating a review with objectives that include 
determining whether TSA is pursuing communication capabilities to 
ensure that federal air marshals in mission status can receive and send 
time-sensitive, mission-related information through secure 
communication while in flight.
---------------------------------------------------------------------------
    All of the 67 air marshals we interviewed in 11 field offices 
commented favorably about the various processes and initiatives for 
addressing operational and quality-of-life issues, and the air marshals 
credited the leadership of the previous FAMS Director. The current FAMS 
Director, as noted in our January 2009 report, has expressed a 
commitment to sustain progress and reinforce a shared vision for 
workforce improvements by continuing applicable processes and 
initiatives.
    In our January 2009 report, we also noted that FAMS plans to 
conduct a workforce satisfaction survey of all employees every 2 years, 
building upon an initial survey conducted in fiscal year 2007, to help 
identify issues affecting the ability of its workforce to carry out its 
mission. We reported that a majority (79 percent) of the respondents to 
the 2007 survey indicated that there had been positive changes from the 
prior year, although the overall response rate (46 percent) constituted 
less than half of the workforce. The 46 percent response rate was 
substantially less than the 80 percent rate encouraged by the Office of 
Management and Budget (OMB) in its guidance for federal surveys that 
require its approval.\17\ According to the OMB guidance, a high 
response rate increases the likelihood that the views of the target 
population are reflected in the survey results. We also reported that 
the 2007 survey's results may not provide a complete assessment of 
employees' satisfaction because
---------------------------------------------------------------------------
    \17\ The OMB guidance governs federal agency surveys of the public 
at large or outside individuals, groups, or organizations, such as 
local government entities. The FAMS workforce survey was administered 
internally to gather information from the agency's employees. Although 
internal workforce surveys such as the one conducted by FAMS do not 
require OMB approval, we believe the OMB standards and guidance provide 
relevant direction on planning, designing, and implementing high-
quality surveys--including the need to obtain a high response rate to 
increase the potential that survey responses will accurately represent 
the views of the survey population.
---------------------------------------------------------------------------
    <bullet> 7 of the 60 questions in the 2007 survey questionnaire 
combined two or more issues, which could cause respondents to be 
unclear on what issue to address and result in potentially misleading 
responses, and
    <bullet> none of the 60 questions in the 2007 survey questionnaire 
provided for response options such as ``not applicable'' or ``no basis 
to judge''--responses that would be appropriate when respondents had 
little or no familiarity with the topic in question.
    In summary, our January 2009 report noted that obtaining a higher 
response rate to FAMS's future surveys and modifying the structure of 
some questions could enhance the surveys' potential usefulness by, for 
instance, providing a more comprehensive basis for assessing employees' 
attitudes and perspectives. Thus, to increase the usefulness of the 
agency's biennial workforce satisfaction surveys, we recommended that 
the FAMS Director take steps to ensure that the surveys are well 
designed and that additional efforts are considered for obtaining the 
highest possible response rates. Our January 2009 report recognized 
that DHS and TSA agreed with our recommendation and noted that FAMS was 
in the initial stages of formulating the next workforce satisfaction 
survey. More recently, by letter dated July 2, 2009, DHS informed 
applicable congressional committees and OMB of actions taken in 
response to our recommendation.\18\ The response letter noted that 
agency plans include (1) ensuring that questions in the 2009 survey are 
clearly structured and unambiguous, (2) conducting a pretest of the 
2009 survey questions, and (3) developing and executing a detailed 
communication plan.
---------------------------------------------------------------------------
    \18\  Pursuant to 31 U.S.C. Sec. 720, the head of a federal agency 
must submit a written statement of the actions taken on our 
recommendations to the Senate Committee on Homeland Security and 
Governmental Affairs and to the House Committee on Oversight and 
Government Reform not later than 60 days from the date of the report 
and to the House and Senate Committees on Appropriations with the 
agency's first request for appropriations made more than 60 days after 
the date of the report.

Congressional Oversight Issues
    Federal air marshals are an important layer of aviation security. 
FAMS, to its credit, has established a number of processes and 
initiatives to address various operational and quality-of-life issues 
that affect the ability of air marshals and other FAMS personnel to 
perform their aviation security mission. The current FAMS Director has 
expressed a commitment to continue relevant processes and initiatives 
for identifying and addressing workforce concerns, maintaining open 
lines of communications, and sustaining progress.
    Similarly, this hearing provides an opportunity for congressional 
stakeholders to focus a dialogue on how to sustain progress at FAMS. 
For example, relevant questions that could be raised include the 
following: &bull;
        <bullet> In implementing the agency's concept of operations, 
        how effectively does FAMS use new threat information and 
        intelligence to modify flight coverage goals and the 
        corresponding flight schedules of air marshals?
        <bullet> In managing limited resources to mitigate a 
        potentially unlimited range of security threats, how does FAMS 
        ensure that federal air marshals are allocated appropriately 
        for meeting in-flight security responsibilities as well as 
        supporting new ground-based security responsibilities, such as 
        VIPR team assignments? What cost-benefit analyses, if any, are 
        being used to guide FAMS decision makers?
        <bullet> To what extent have appropriate performance measures 
        been developed for gauging the effectiveness and results of 
        resource allocations and utilization?
        <bullet> How does FAMS foster career sustainability for federal 
        air marshals given that maintaining an effective operational 
        tempo is not necessarily compatible with supporting a better 
        work-life balance?
    These types of questions warrant ongoing consideration by FAMS 
management and continued oversight by congressional stakeholders.
    Mr. Chairman, this completes my prepared statement. I look forward 
to answering any questions that you or other members of the 
subcommittee may have.

    Mr. Carney. Thank you, Mr. Lord, for your testimony.
    And I now recognize Mr. Adler to summarize his statement 
for 5 minutes.

    STATEMENT OF JON ADLER, NATIONAL PRESIDENT, FEDERAL LAW 
                ENFORCEMENT OFFICERS ASSOCIATION

    Mr. Adler. Chairman Carney, Ranking Member Bilirakis, and 
distinguished members of the committee, on behalf of the 
membership of the Federal Law Enforcement Officers Association, 
I thank you for the opportunity to appear before you today.
    My name is Jon Adler, and I am the national president of 
FLEOA. I am proud to represent approximately 1,300 federal air 
marshals and share their views with you regarding personnel and 
workforce issues. As the ``boots on the plane,'' the flying air 
marshals' perspective and insight are paramount to the success 
and effectiveness of the agency.
    Since the horrific events of September 11, 2001, the 
Federal Air Marshals Service has struggled to grow beyond its 
tumultuous past. Furthermore, after enduring an executive 
management staff that was more fixated on dress codes than air 
marshal safety, the agency is beginning to come together under 
the strong leadership of Director Bob Bray.
    The emotional wounds inflicted by the FAMS's executive 
staff during the 2003 to 2006 period, all of which predates 
Director Bray, still, unfortunately, lingers. Nonetheless, our 
air marshals are valiantly trying to regain their agency's 
credibility and reassemble a splintered workforce that plays a 
vital role in our homeland security.
    To their credit, they are succeeding. We can see this 
success by examining the progress Director Bray and the air 
marshals have made with the visible intermodal protection and 
response program, otherwise known as VIPR. While it was 
initially rolled out with many flaws, it has ultimately evolved 
into a viable program.
    On August 9, 2007, FLEOA met with Secretary Chertoff to 
discuss the flaws in the program. Subsequent to the meeting, 
Secretary Chertoff directed then-TSA Administrator Edmund 
``Kip'' Hawley to ensure that the air marshals' safety would 
not be compromised working ground-based missions.
    After being appointed the FAMS director, Mr. Bray embraced 
this and instituted a policy that corrected the operational and 
safety issues.
    Intelligence reports continue to indicate that subversive 
groups are still searching for vulnerabilities in our public 
transportation system. It is important that Congress recognizes 
this and provides the FAMS with the necessary funding to 
operate this important program.
    Our allies in Israel who run the El Al airline have 
succeeded by running a similar proactive program geared towards 
ground-based missions. We should learn by their example.
    While Director Bray has done an admirable job elevating 
morale in the FAMS, the attrition rate continues to be high. 
Anecdotal feedback from our membership indicates that this is 
largely a result of the FAMS being trapped in a 2004 interim 
TSA pay-for-performance scale.
    Unlike all their DHS counterparts, such as ICE, CBP, and 
the Secret Service, air marshals do not get in-step pay 
increases. The logical solution to this problem is to place the 
FAMS on the same G.S., which is General Schedule, pay scale 
that their counterparts are on.
    Another factor that impacts attrition is the limitation of 
their training. Air marshals carry out a mission that entails 
more than just security functions. Specifically, air marshals 
should go through the Criminal Investigator Training Program 
like their counterparts in DHS.
    So what value does this bring? First, it would provide them 
with the right training to perform ground-based assignments. 
The training places heavy emphasis on interviewing skills, 
report-writing, surveillance, legal procedure, and working 
crime scenes.
    It will also empower the force multiplier concept within 
DHS. This means that the DHS could use the air marshals to 
augment their law enforcement efforts in a variety of ways. An 
example: the southwest border initiative, U.N. General Assembly 
protection details, national emergencies, such as Hurricane 
Katrina, et cetera.
    Last, in an effort to remedy some of the personnel 
hardships brought on by those who spoke out in the past, FLEOA 
recommends that TSA conduct retroactive case reviews of past 
whistleblower cases within the agency.
    Brave air marshals such as Frank Terreri, who is here 
today, as well as Robert MacLean and others, were punished in 
2005 and 2006, prior to Director Bray coming on, for blowing 
the whistle on past FAMS policies that endangered the public.
    At the same time, FLEOA executive management, in the height 
of its hypocrisy, continued to televise false bravado news 
segments that publicized air marshal operational protocol. I 
appeal to this committee to support all efforts to review these 
cases and return them, those who were victimized, to full 
flying duty.
    In closing, I would like to leave this committee with one 
point to consider. If you look at the TSA organization chart, 
you will see that the FAMS are placed on the fourth row.
    There isn't a person within TSA that has more credible law 
enforcement and security experience than Director Bob Bray. 
Furthermore, no other box on that chart represents the wealth 
of law enforcement and security experience that the air marshal 
workforce embodies. Shouldn't they be at the top of the chart, 
leading TSA?
    I thank you for taking the time to consider the viewpoint 
of the flying air marshals.
    And as the others, I am available and happy to answer any 
questions you may have.
    [The statement of Mr. Adler follows:]

                    Prepared Statement of John Adler

    Chairman Carney, Ranking Member Bilirakis, and Distinguished 
Members of the committee, on behalf of the membership of the Federal 
Law Enforcement Officers Association, I thank you for the opportunity 
to appear before you today. My name is Jon Adler and I am the National 
President of F.L.E.O.A. I am proud to represent approximately 1,300 
Federal Air Marshals, and share their views with you regarding 
personnel and work- force issues. As the ``Boots on the Plane,'' the 
flying Air Marshal's perspective and insight are paramount to the 
success and effectiveness of the agency.
    Since the horrific events of September 11th, 2001, the Federal Air 
Marshals Service has struggled to grow beyond its tumultuous past. 
Furthermore, after enduring an executive management staff that was more 
fixated on dress codes than Air Marshal safety, the agency is beginning 
to come together under the strong leadership of Director Bob Bray.
    The emotional wounds inflicted by the FAMS' executive Staff during 
the 2003 to 2006 period still linger. Nonetheless, our Air Marshals are 
valiantly trying to regain their agency's credibility and reassemble a 
splintered workforce that plays a vital role in our homeland security. 
To their credit, they are succeeding.
    We can see this success by examining the progress Director Bray and 
the Air Marshals have made with the Visible Intermodal Protection and 
Response (VIPR) program. While it was initially rolled out with many 
flaws, it has ultimately evolved into a viable program.
    On August 9th, 2007, FLEOA met with Secretary Michael Chertoff to 
discuss the flaws in the program. Subsequent to the meeting, Secretary 
Chertoff directed then TSA Administrator Edmund ``Kip'' Hawley to 
ensure that the Air Marshals' safety would not be compromised working 
ground based missions. After being appointed the FAMS Director, Mr. 
Bray embraced this, and instituted a policy that corrected the 
operational and safety issues.
    Intelligence reports continue to indicate that subversive groups 
are still searching for vulnerabilities in our public transportation 
system. It is important that Congress recognizes this and provides the 
FAMS with the necessary funding to operate this important program. Our 
allies in Israel who run the El Al airline have succeeded by running a 
similar proactive program geared towards ground based missions. We 
should learn by their example.
    While Director Bray has done an admirable job elevating moral in 
the FAMS, the attrition rate continues to be high. Anecdotal feedback 
from our membership indicates that this is largely a result of the FAMS 
being trapped in the 2004 TSA pay for performance scale. Unlike all 
their DHS counterparts, such as ICE, CBP and the Secret Service, Air 
Marshals do not get ``in-step'' pay increases. The logical solution to 
this problem is to place the FAMS on the same GS (General Schedule) pay 
scale that their counterparts are on.
    Another factor that impacts attrition is the limitation of their 
training. Air Marshals' carry out a mission that entails more than 
security functions. Specifically, Air Marshals should go through the 
Criminal Investigator Training Program (CITP) like their counterparts 
in DHS. What value does this bring? First, it would provide them with 
the right training to perform ground based assignments. The training 
places heavy emphasis on interviewing skills, report writing, 
surveillance, legal procedure, and working crime scenes. It will also 
empower the force multiplier concept within DHS. This means that the 
DHS could use the Air Marshals to augment their law enforcement efforts 
in a variety of ways, i.e., Southwest border initiative, UN General 
Assembly protection details, national emergencies such as Hurricane 
Katrina, etc.
    Last, in an effort to remedy some of the personnel hardships 
brought on those who spoke out in the past, FLEOA recommends that TSA 
conduct retroactive case reviews of past Whistleblower cases within the 
agency. Brave Air Marshals such as FrankTerreri who sits with me today, 
and Robert MacLean were punished in 2005 and 2006 for blowing the 
whistle on past FAMS policies that endangered the public. At the same 
time, FAMS executive management, in the height of its hypocrisy, 
continued to televise false bravado news segments that publicized Air 
Marshal operational protocol. I appeal to this committee to support all 
efforts to review these cases and return those who were victimized to 
full flying duty.
    In closing, I would like to leave this committee with one point to 
consider. If you look at the TSA Organization chart, you will see that 
the FAMS are placed on the fourth row. There isn't a person within TSA 
that has more credible law enforcement and security experience than 
Director Bob Bray. Furthermore, no other box on that chart represents 
the wealth of law enforcement and security experience that the Air 
Marshal workforce embodies. Shouldn't they be at the top of the chart, 
leading TSA--I thank you for taking the time to consider the viewpoint 
of the flying Air Marshal.

    Mr. Carney. Thank you, Mr. Adler.
    And thank you all for your testimony.
    And I remind each member that he or she will have 5 minutes 
to question the panel. And I will now recognize myself for 5 
minutes.
    Mr. Bray, I want to kind of dig into the VIPR issue real 
quick. Can you describe some of the potential problems you saw 
with a public face to FAMS? How is the anonymity protected, et 
cetera?
    Mr. Bray. The anonymity of the FAMs is protected now by 
basing on where we deploy the FAMs. If a FAM is based in one 
city and we have a VIPR program--we just had a large VIPR 
operation in Seattle when they opened a new rail transport 
system there. So we would send FAMS from the other cities--from 
other cities other than Seattle so it is not their home city.
    We send a large group of FAMS who are trained in VIPR 
missions up there who are dedicated to VIPR missions. That is 
one way we take care of the anonymity issues.
    We also have the ability the FAMs in their hometown, 
dressed in clothing that doesn't--they could be covert. They 
could be overt. If they are overt, we address them in clothing 
that says ``DHS.'' It doesn't say ``FAMS.'' It doesn't say 
``TSA.'' So no one is really sure who they are.
    And we worked with FLEOA to develop all those processes and 
procedures, so I think we have a strong program now for 
protecting the anonymity of the FAMs.
    Mr. Carney. Okay. Mr. Adler, you would agree with that, 
that things have improved?
    Mr. Adler. Yes, I do. And I had referenced our meeting with 
Secretary Chertoff. After that time, he embraced everything 
which Director Bray just said. We have met with Director Bray. 
We have opened lines of communication with him. We expressed 
the views of the flying FAMS, and he immediately acted upon it. 
And I think he is doing a great job putting all efforts towards 
protecting the anonymity of the FAMs while engaging in this 
important program.
    Mr. Carney. Okay. Mr. Lord, what challenges remain?
    Mr. Lord. I had a more fundamental question about these 
VIPR operations, Mr. Chairman. First of all, I think you need 
to ask whether these activities are compatible with the core 
mission of FAMS, especially since about half of them are 
conducted on non-aviation facilities. This is totally outside 
the context or protecting passengers, protecting air crews. 
That is the first question. To what extent does this represent 
mission creep?
    The second issue I have is, how do you actually measure the 
effectiveness of the VIPR deployments conducted to date? We 
have had some discussions with TSA on this, and they recognize 
the importance of this, yet these performance measures are 
still being rolled out. Yet, at the same time, TSA is seeking 
$50 million to fund these activities.
    From a GAO perspective, we would argue it is important to 
have these measures in place first, before a grow in the 
program.
    Mr. Carney. Mr. Bray, how do you address that? Is it true 
that we have mission creep here with the VIPR team or the FAMs?
    Mr. Adler. I think, in referencing the organization chart, 
it would be something, a matter of modifying an acronym. I am 
more concerned with the threats and how we are prepared to 
respond to them than being overly fixated on the fact that the 
FAMS, the ``A'' stands for ``air.'' I think they are the law 
enforcement component within TSA, and they are responsible.
    I mean, there is no other law enforcement component there. 
And if something were to happen on the airport grounds, which 
is not up in the air, there is no federal presence in any of 
our airports that can respond as a first responder, and set up 
a crime scene, and deal with a crime, which is a federal 
violation, other than the federal air marshals.
    So I don't see it as mission creep. I see it as long 
overdue, responding to real threats, and getting out there in a 
proactive manner to deal with it.
    Mr. Carney. So local law enforcement doesn't fulfill that 
mission?
    Mr. Adler. I don't think so. In fact, in airports, you may 
find one officer there, and it seems their primary function is 
to just--to deal with law enforcement officers flying armed. 
And should something happen that is a federal violation, they 
don't have the jurisdiction.
    And they are not the appropriate person to immediately deal 
with the situation, whether it is a pursuit, apprehension, set 
up the crime scene, interview witnesses. It is not their 
jurisdiction.
    Mr. Carney. Mr. Bray, first?
    Mr. Bray. Thank you, Mr. Chairman.
    With regard to the statement about mission creep, when 
Congress authorized the VIPR program as part of the fulfilling 
the obligations of the 9/11 Act, they specifically authorized 
the Federal Air Marshal Service and TSA more full-time 
employees to fulfill that role.
    So when we put a FAM into a VIPR program, there is no 
mission degradation regarding our coverage of flights in the 
air. We still have a robust coverage of those flights, but the 
FAM that is dedicated to the VIPR team is assigned to the VIPR 
team, and they do work--the VIPR program is part of TSA's core 
element, with regard to our focus on the entire transportation 
venue.
    If you recall, after the train bombings in Madrid and 
London, there was an emphasis on TSA to focus on areas in 
addition to aviation. And this was our response to the 
strategic development of assets, and it does include TSA, it 
does include other federal agencies, it does include local law 
enforcement and the transit systems, when we have a VIPR team 
go into that program. So it is a very good--very well 
collaborated program now.
    Mr. Carney. Okay. Mr. Lord, quickly?
    Mr. Lord. I would like to respond to Mr. Adler's comments 
on the operations. I have a lot of respect for Mr. Adler, but I 
think it is important to point out, in fact, we have a report 
coming out tomorrow. We focused on VIPR operations in a mass 
transit mode.
    Some of the transit officials we met with raised this 
question about additionality. They said, ``We already have a 
security force,'' so they wondered out loud about what these 
additional VIPR deployments really provided.
    So, anyway, I think it is important to get the question on 
the table. And you can probably argue it both ways.
    Mr. Carney. All right. Thank you.
    I now recognize Mr. Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    Question for Director Bray and Mr. Adler. As I mentioned 
before, when this committee considered H.R. 2200, the TSA 
Authorization Act, Congressman Lungren offered an amendment 
that would have restored the Criminal Investigator Training 
Program to the Federal Air Marshal Service. Are you in support 
of this effort? And if you are, can you please tell me why?
    Mr. Adler. We are definitely in support of it. And my 
membership, the air marshals we represent, are very much in 
support of it.
    I think it is important to look at the actual program to 
understand the value it would bring to the air marshals and its 
flying air marshals. The Criminal Investigator Training Program 
is not as glorious as maybe Hollywood might suggest, in terms 
of what actually goes on in the academy. They emphasize a lot 
of things like interviewing skills, legal procedure, report 
writing, even surveillance, and also setting up and 
establishing a crime scene.
    And I think these things are very important. You know, we 
have some guys within the law enforcement community who go out 
and do great work. And then, when it comes down to documenting 
what they have done, the whole thing just goes belly up.
    I think the value that you get out of CITP would transform 
into real meaningful training experience or ultimately into 
real viable experience that the FAMs can really build on as 
they engage in these VIPR missions.
    Mr. Bilirakis. Mr. Bray, please?
    Mr. Bray. Thank you. I think it is important to give our 
federal air marshals all the tools they can possess to do their 
jobs, to detect, deter and defeat terrorism.
    And I strongly believe that the addition of the Criminal 
Investigator Training Program to our arsenal of weapons, if you 
want to put it that way, to provide our people with that, as 
Jon said, the enhanced interview and interrogation skills, the 
behavior detection skills, and the report-writing skills.
    And it really gives them--the training they receive now is 
training that is really basic police officer training. This 
will allow them to be proactive in their interdiction 
capabilities. The training they receive now, if you could 
change the paradigm of thinking, is to respond to after the 
event occurs.
    I want to change that thinking to be able--and give them 
the tools in their arsenals to be able to go forward and 
interdict before the event occurs, when they see something that 
is suspicious, and have that repertoire of knowledge in their 
capacity to move forward with that.
    So I think it is very important that we move the CITP 
training. And I have no desire to have them become 1811s or 
criminal investigators. We are happy to stay as 1801s, federal 
air marshals, and we don't want to change their titles or 
anything else. We just want to give them that tool in their 
arsenal.
    Mr. Bilirakis. Thank you very much.
    A question for Director Bray again. What new initiatives is 
the FAMS planning for fiscal year 2010? I know you touched on 
it a little bit, if you can elaborate.
    Mr. Bray. The initiatives that we have underway that are 
underway right now is a program called the senior federal air 
marshal program that recognizes those people who have 
approximately 4-1/2 years of flying time. It equals out to 
about 800 hours of flying time per year. I am sorry, 4-1/2 
years.
    And that recognizes the people that have been doing the 
job, the daily job, and then going out there in their quiet 
professionalism. And it gives them another award and 
recognition. And we are going to change their commission book 
so it says ``senior federal air marshal.'' And it is a 
recognition of everyone who has been doing the job quietly 
since we stood up the organization.
    We are also instituting a field training officer program. 
We call it a FAM mentoring program, when our new FAMS come 
onboard, we will have a senior FAM that will be assisting that 
person with their introduction, indoctrination into the Federal 
Air Marshal Service.
    We think both those programs would help build our corporate 
culture, can move us forward in what I call the culture of 
accountability, another program that we started, to help 
everyone recognize that we all need to take care of each other, 
when we see a person that is about to get in trouble or who is 
going to get into trouble, to try to have them interdict that 
and help that person before the person makes a mistake in their 
life that will affect their career or their family.
    Mr. Bilirakis. Thank you very much.
    One last question for Mr. Lord. Your report notes the 
positive results of many of the FAMS's initiatives to address 
workforce issues. In your opinion, how would you rank the 
Federal Air Marshal Service's outreach to its employees on 
workforce issues compared to the efforts of the other federal 
agencies and departments? And do you believe that any of the 
FAMS's initiatives could be used as the best practices for 
other components within the Department of Homeland Security or 
federal government-wide?
    Mr. Lord. Let me respond to one of your latter questions. 
We didn't do a comparative analysis comparing their outreach 
efforts with other federal agencies, but we certainly were 
impressed by the scale and scope of these improvement 
initiatives. So that would probably be--that is left to a 
follow-on review to compare what they are doing with other TSA 
components, perhaps, or other components within the Department 
of Homeland Security.
    Mr. Bilirakis. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Carney. Thank you.
    The chair will now recognize other members for questions 
they may wish to ask the witnesses. In accordance with our 
committee rules and practice, I will recognize members who were 
present at the start of the hearing based on seniority on the 
subcommittee, alternating between majority and minority. Those 
members coming in later will be recognized in order of their 
arrival.
    The chair now recognizes for 5 minutes the gentleman from 
New York, Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Bray, it is my understanding that many of what I would 
consider positive policy and procedural changes that are going 
on within the Federal Air Marshal Service that deal with the 
workforce were brought to light by air marshals. In fact, some 
of those air marshals blew the whistle, voiced their concerns 
about past policies and past actions.
    Many of these same air marshals found themselves enmeshed 
in legal battles following their revelations. In October of 
2007, a couple years ago, in your seat sat TSA Administrator 
Kip Hawley, and I asked him about federal air marshal Robert 
MacLean's termination, because he blew the whistle. And as many 
other marshals, he blew the whistle, and what he blew the 
whistle on was implemented by TSA, but he lost his job.
    Administrator Hawley promised me and this panel that he 
would get back to me on the case, and yet he is gone, and I 
never received a response. I don't like those kinds of things. 
That is not the way to do business here.
    But I have a good memory still. What I am also very 
concerned about is that these officers who blew the whistle on 
wrongdoing still have not gotten their jobs back. I have read 
the pronouncements of the merit board. I have read the 
pronouncements of the TSA. These folks still did not get their 
job back. Three years after the fact, we are going on 4 years, 
and we are here.
    In fact, according to Tom Devine, the legal director of the 
Government Accountability Project, FAMS has not made an attempt 
to restore whistleblowers that lost their jobs for bringing to 
light issues that were later found to be valid. In fact, in 
many of them, we have changed the notification either from 
sensitive to classified and then we have unclassified the 
information to--I mean, this is serious, and we need to treat 
it seriously.
    I find this completely unacceptable, and I am sure you do, 
too, Director Bray, even in the face of progress you have made, 
and you have made progress, and I congratulate you.
    After having being terminated for doing the right thing, 
shouldn't these folks be restored in their jobs? Can you tell 
me what the service intends to do in regards to restoring 
former whistleblowers that lost their jobs for bringing to 
light issues that were later found to be valid?
    Director Bray?
    Mr. Bray. Sir, I think the response to you is a two-part 
response. But first, we have to talk about is why these people 
felt it was necessary to bring into light other than by going 
to the media and going on TV and things like that. And I think 
that is a problem that we have been trying to follow up for the 
last several years----
    Mr. Pascrell. Well, they weren't responded to by the 
department.
    Mr. Bray. That is what I mean, sir. I mean, when--now we 
are trying to engage the workforce to--I just recently 
established what I call the FAM advisory council, where we have 
representatives in each office that meet with me personally on 
a regular basis. I engage the people in listening sessions. I 
also engage people, the FAMs, in other ways, listening 
sessions.
    We have what I call breakfast with Bob, where I regularly 
go out and have breakfast with transiting FAMS. And what I say 
when I meet with the FAMs, the first thing I open it with is 
that, when you tell me there is a problem in your office, you 
know, there is not going to be any retribution or retaliation 
for you bringing these issues forward. So we are trying to open 
that line of communication.
    And if we have any whistleblowers that come forward now, we 
just finished a training period with all of our frontline 
supervisors to--with the EEO. We had--actually had the office 
of Equal Employment Opportunity Commission come in and provide 
training for all of our frontline supervisors on EEO matters, 
discipline matters, and whistleblower matters.
    So we are trying to get--push that down from the top down 
to our frontline supervisors who are dealing with the FAMs 
every day. They are engaging everyone much more than we did in 
the past, so that is one thing.
    As far as the whistleblowers, we fully support all the 
rights and privileges they have under the Whistleblower 
Protection Act. And once their cases now, sir, as you know, are 
in the legal system. So I am encumbered from making any comment 
on that until those cases are resolved, but I think we have 
really tried to outreach to our people now to solve the problem 
and why they felt it was so necessary to whistle blow in the 
first place.
    Mr. Pascrell. There is one way to get them out there, the 
judiciary system, and that is to give them their jobs back, 
pure and simple. The only reason why this is before the courts 
is because the department did not give them back their jobs, 
and they deserve to have their jobs back.
    Thank you.
    Mr. Carney. Thank you, Mr. Pascrell.
    The chair now recognizes my good friend from Pennsylvania, 
Mr. Dent, for 5 minutes.
    Mr. Dent. Thank you, Mr. Chairman.
    Director Bray, over the last several years, there have been 
many reports of alleged misconduct by some air marshals. What 
processes do you have in place to address misconduct?
    Mr. Bray. When we have an initial report of misconduct by a 
federal air marshal, it is automatically referred to the Office 
of Inspection, which is a separate entity within TSA. They will 
normally review that case with the Department of Homeland 
Security inspector general to see who is going to investigate 
that case, and they will go out very rapidly and investigate 
that claim of misconduct.
    And so we do not investigate it. We refer it to other 
people, and then, when they give us the report back, we will 
make a decision on the action we will take against that person. 
And there is a set of actions that we work with our counsel's 
office to make sure that all the actions are equitable as far 
as discipline against a person.
    I have, since I took this office over, changed--through 
TSA, changed the policy for someone arrested for DUI. It used 
to be the lowest level was letter of reprimand. And now for a 
federal air marshal, when they are arrested for DUI, it is 30 
days off, which is a significant for first offense, where 30 
days off is a minimum. It could be more than that, depending on 
the circumstances around the incident.
    Mr. Dent. Do you think that you need to change your 
background check process? Do you think that is necessary?
    Mr. Bray. Sir, I don't think so. I think our background 
check process, it does take a little while with OPM. We go 
through OPM for our criminal--for our background check process, 
as far as the actual interviews.
    But most of the incidents occur, you know, obviously well 
after the background check process. I think we had some issues 
there at the standing up of the organization, when the 
organization was first started. But I think now we have a very 
rigorous process with review of the person's background that 
involves a field office, office of personnel security, and 
others within the organization.
    Mr. Dent. And, finally, what rules and policies do the 
federal air marshals have in place to ensure minimum rest 
standards for federal air marshals to ensure that we have an 
alert workforce?
    Mr. Bray. That is something we have worked on since I ran 
that program back in 2003. And that is another one of our 
initiatives I should have mentioned earlier, where we have now 
what is called a 60-hour rule, that whenever the person's 
Friday evening occurs, at 6 p.m., we give them at least 60 
hours off before their next flight.
    When they have an international flight, there are work 
rules for how much time they have off. On an international 
flight--we have all flown internationally. We realize there is 
jetlag, there are many issues with time change. So we try to 
work with them on that.
    There is also--we have the mission exchange program, where 
if a person has a family event or some crisis that comes up and 
they don't want to use leave or they would rather--they have 
the ability within their field office to contact other federal 
air marshals to see if they can change that mission with 
someone else.
    So we have been proactive on that. We are also working in 
the future--we are working on it now. We are working on in the 
future to do what we call scheduling consistency programs, 
where we are--if a FAM has a flight that starts at a certain 
time period--say, 8 a.m. on their Monday, whenever it is--
obviously, we are a 24/7 organization, but we try to--the first 
flight of their workweek is at 8 a.m. We are working to make 
that schedule consistent throughout the week so it is within a 
3-hour window of that time slot throughout the week. And we 
think that will help with the issues which we have with any 
sleep disturbance patterns or circadian rhythm patterns and 
things like that.
    So we are working towards that. That is a long process. We 
are doing it manually now, where we dedicate an employee to do 
that. We want to automate it, but it is going to probably 
take--probably take us a few more months, probably a couple of 
years to finally finish that project.
    Mr. Dent. Thank you.
    And, Mr. Lord, your report notes the usefulness of the 
federal air marshals' workforce satisfaction survey and 
recommends some changes to enhance its future surveys. Aside 
from those recommendations, are there any other issues you 
believe that the federal air marshals should address to improve 
its core mission or improve its workforce?
    Mr. Lord. That is an excellent question. Our latest report 
focused on the recommendations related to improving the 
usefulness of the workforce survey. We have previously looked 
at federal air marshals, made recommendations to improve in 
other areas, such as amending their policies and check-in 
boarding procedures. They have implemented those, as Director 
Bray noted.
    So those are our most current recommendations, the ones 
related to workforce satisfaction survey.
    Mr. Dent. Thank you.
    Mr. Chairman, I yield back.
    Mr. Carney. Thank you.
    The chair recognizes the gentleman from Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman.
    And I thank the witnesses for testifying this morning. 
Because time is of the essence, I will move rather quickly.
    Would you kindly address a piece of legislation, H.R. 1881, 
the Transportation Security Workforce Enhancement Act of 2009, 
that was passed out of this committee? Are you familiar with 
it, sir?
    It is my belief that this will address some of the fairness 
and equity issues with reference to salary. Can you briefly 
tell me if you have a similar opinion?
    Mr. Bray. Sir, I do have a similar opinion. We are always 
looking for things that will enhance our workforce. I believe 
this will be a strong enhancement of our workforce, and I 
support this program, as the administration does, I believe, 
and I support what the administration is working for to enhance 
our program.
    Mr. Green. Now, moving to another topic quickly, we talked 
about the downtime for marshals. In between flights, is there a 
downtime, or do they work an 8-hour day one hour after another? 
How do they receive some degree of relief in the course of a 
day?
    Mr. Bray. It depends on the flights. We generally try to--
they do work a little more than an 8-hour day on average. Their 
flight time average was about 5 hours a day, so they will have 
a little downtime within the airport.
    But as we all know, when you travel, you know, with weather 
and other issues with airplanes, sometimes it is hectic. But we 
do work with them very assiduously to make sure they have the 
downtime on their days off.
    We have a certain amount of training days scheduled every 
quarter. We have a certain amount of what we call non-mission 
status days. So they don't fly all the time. We try to get them 
in the office to help with their training. We are very strong 
advocates of training, so we have a number of initiatives to 
help with their downtime.
    Mr. Green. Are you receiving--without getting into a 
specific complaint--complaints about downtime still?
    Mr. Bray. Sir, I don't believe--I am not. I don't hear much 
of that when I engage with the FAMs on--either at the 
breakfasts or in the advisory councils.
    Mr. Green. Are marshals permitted to identify themselves to 
members of Congress?
    Mr. Bray. That is up to them, sir. I mean, certainly.
    Mr. Green. Is it a violation of any rule to do so?
    Mr. Bray. Not that I am aware of, sir.
    Mr. Green. I ask, because a person has identified himself 
as a marshal to me. I have talked to more than one, I think. 
And perhaps it is just the way that I look that causes people 
to tell me their woes, but I will tell you that that is a 
concern that has been expressed to me by a person who 
represented himself to be a marshal.
    I will tell you, I did not check the ID of the person, but, 
you know, if you can look like a marshal, this person looked 
like a marshal, okay? So there are concerns about the downtime.
    Let me move quickly to something else. Protecting the 
protectors is the style of this hearing. We have had recent 
applications for positions. Is it true that you had about 
17,000 applications?
    Mr. Bray. Yes, sir, it is true.
    Mr. Green. And my assumption is that you had a great deal 
of diversity within the applications. Tell me what--currently, 
what is the breakdown statistically with reference to 
ethnicities within the force?
    Mr. Bray. Sir, I don't have that in front of me, but it is 
not as good as we would hope.
    Mr. Green. Is it true that we have about 4.7 percent women?
    Mr. Bray. I believe that is true. Yes, sir.
    Mr. Green. Can you go on and give me any additional 
intelligence?
    Mr. Bray. I don't have it in front of me. We will certainly 
get that back to you. We can get that back to you today, I 
believe.
    Mr. Green. Is it true that about 73 percent of the 
workforce is Anglo?
    Mr. Bray. I think that sounds about right, sir.
    Mr. Green. Is it true that you do not have an African-
American, Hispanic, nor do we have an Asian that is an SES?
    Mr. Bray. That is not true, sir.
    Mr. Green. Help me.
    Mr. Bray. We do have--several African-Americans are SES, 
either as field office supervisors or in the headquarters staff 
as assistant directors.
    Mr. Green. And how many do we have totally SES?
    Mr. Bray. African-Americans?
    Mr. Green. No, no, total positions.
    Mr. Bray. Total within the Federal Air Marshal Service?
    Mr. Green. Yes, yes.
    Mr. Bray. I believe there are 21.
    Mr. Green. Twenty-one? All right, well, would you be kind 
enough to give me a written response that will include the 
statistical breakdown on positions and various ethnicities?
    By the way, I don't ask this question because I think that 
you have to be of a certain ethnicity to serve. I think all 
capable, competent and qualified persons should serve, if 
given--if they desire to and they apply.
    So what I am interested in is making sure that all capable, 
competent and qualified persons will have the opportunity to 
serve. And we want the numbers to reflect it. We live in a 
world where it is not enough for things to be right; they must 
also look right. And we want to make sure that, notwithstanding 
stats being right, that we have the proper appearance for work 
purposes to getting the job done, capable, competent, qualified 
persons.
    I thank you for your responses.
    Mr. Bray. Thank you.
    Mr. Carney. Thank you, Mr. Green.
    I think we will start a second round here.
    Mr. Bray, I want to follow up on something Mr. Dent was 
talking about, in terms of disciplinary actions. You mentioned, 
for example, a DUI would elicit a 30-day time off. Is that 
without pay?
    Mr. Bray. Correct. Without pay, without law enforcement 
privileges.
    Mr. Carney. Okay. Now, how consistent across the various 
offices are our policies promulgated? And, actually, how 
consistent are they, in terms of time off, in terms of 
disciplinary, in terms of promotion, that sort of thing?
    Mr. Bray. To answer the first part of your question--
because it is the difference between policy and promotion--but 
the policy, we actually have a unit called policy compliance 
unit that looks at that very issue with regards to time off, 
discipline actions, and those certain manners, where we work 
with the policy compliance unit and with the TSA office of 
inspection and TSA office of chief counsel to try to ensure 
that we do have equity across the entire spectrum of our 
offices for discipline matters.
    As far as promotion, it is a competitive promotion process 
that we go through. And the persons that are interested in that 
do bid on their promotion. There is a panel that we get 
together of level of supervisors that review the applications, 
and then we go through that. There is a long process for that.
    Mr. Carney. Is there a written guidance that goes out to 
all the offices, field offices for disciplinary administrative 
procedures?
    Mr. Bray. There is a general written guidance, yes, sir.
    Mr. Carney. Okay. All right. And how you--your breakfasts 
with Bob, I guess, are how you kind of take the temperature in 
making sure that the--you know, the morale issue, I think, is 
being addressed, that that is one of the things certainly. And 
I really applaud your lines of communication there.
    But what stuff do you take beyond that to make sure that 
these field offices are run effectively, you know, that they 
are following the procedures? And by the way, you might want to 
follow up with how much latitude does a district or a field 
director have?
    Mr. Bray. They do have a certain amount of latitude, but 
each office is inspected on a regular basis by the TSA office 
of inspection. They look at morale. They look at compliance to 
the rules. They look at compliance to the administrative 
standards. They are looking to make sure everybody is 
performing to their physical fitness standards and their re-
qualification scores on a regular basis.
    They go through the office on a pretty thorough basis, and 
it is done on a regular basis. And we can also--they have been 
very helpful to us whenever we had an issue in their office 
where we wanted them to go out and look at a--do a special 
inspection. They respond to us. We get a report on that, and we 
will go over that report at my level with the various assistant 
directors to see what is going on in the office to make sure we 
are up to standard.
    Mr. Carney. Okay.
    Mr. Lord, how consistent are these rules applied, do you 
think?
    Mr. Lord. That is a great question. Unfortunately, that was 
outside the scope of the review we undertook and issued in 
2009. We focused on what processes, rules, procedures were 
enacted in response to the concerns raised by the air marshals. 
That would be the logical next step. To what extent are the 
procedures that were put in place? To what extent are they 
being adhered to? But that was outside the scope of the last 
assignment we did.
    Mr. Carney. Mr. Adler, do you hear any problems of 
favoritism or discrepancies in terms of how folks are treated 
in various offices? Have you ever heard instances of that?
    Mr. Adler. Unfortunately, we have that in every agency. 
There isn't anything out of the ordinary or exclusive to the 
air marshals. You know, my membership consists of federal law 
enforcement officers that come from over 65 different agencies. 
And I will have one member from every agency who will assert 
that, will assert there is an inconsistent application of 
policies and procedures and favoritism.
    Any time you involve people and egos and personalities, you 
are going to come across it. But there isn't anything that I 
have seen--and having my agency president here with me, who is 
my liaison with the air marshals--that was brought to my 
attention to say there was anything that we needed to address 
or discuss with Director Bray along those lines.
    Mr. Carney. Okay.
    I just kind of want to change the direction slightly, Mr. 
Adler. As you may know, the full committee held a markup a 
couple of weeks ago for H.R. 1881, the Transportation Security 
Workforce Enhancement Act. The focus of the act was not only 
TSOs, but all TSA personnel, including FAMS.
    Could you please elaborate on your thoughts about providing 
the workforce a voice through employee representatives and 
collective bargaining?
    Mr. Adler. Yes. We previously opposed the position put 
forth--I think it was both by President Bush and Senator 
McConnell--in terms of the impact, giving TSA employees 
collective bargaining rights. In particular, it would somehow 
impact the president's ability to deploy these folks in a 
national crisis.
    And we were offended by that commentary. You know, we 
consider union employees--and I grew up in a union family--as 
some of the most patriotic people in this country. Look at the 
military rolls. You know, who enlists in the service? Who are 
the first people to step up?
    So I think allowing them collective bargaining rights is 
reasonable. It is what our country is about. It is about due 
process. It is about transparency and open dialogue. It is 
nothing to be intimidated by. It is nothing to suggest that 
there is going to be some sort of secret coup among the TSA 
screeners, to usurp the authority of the administration.
    We support any vehicle that allows for this open 
communication, reasonable discussion on important issues that 
impact the workforce.
    Mr. Carney. But what will this do for morale, giving them 
the same rights and lists more protections and compensation?
    Mr. Adler. I think it would be a tremendous elevation of 
morale. Now, in my situation, we are not a union. We are a 
professional association. Our membership and the air marshals 
who we represent are precluded from engaging in collective 
bargaining.
    Some of what we do may seem to be similar to the function 
of a union, such as engaging elected officials, coming to 
hearings such as this, providing legal representation for our 
members. I think that vehicle in and of itself has been very 
important and very supportive to the air marshals.
    So although not necessarily a collective bargaining 
situation, when you have a director like Director Bray, who has 
a real open door, things are great, and the membership feels as 
though their voice is being heard. Unfortunately, other 
directors aren't necessarily as receptive as Director Bray is 
to getting that stakeholder input, so that is where collective 
bargaining kind of makes it more of a formal setting, where 
they are somewhat required to engage, I guess, the collective 
voice of their workforce.
    Mr. Carney. All right. Thank you.
    Mr. Bilirakis. Thank you. Thank you, Mr. Chairman.
    This question is for Director Bray and Mr. Adler. Could 
some quality-of-life issues and challenges faced by air 
marshals be addressed simply by increasing the number of air 
marshals?
    Mr. Bray. Clearly that would increase the quality of life. 
We would have to work with the Congress, because the Congress 
does have an interest in the amount of missions that the FAMs 
fly.
    But, yes, that would be a definite benefit to our force. I 
mean, we do operate pretty much at maximum capacity for what 
they can do. And it would allow us more time for training and 
employee development and other areas. So, yes, I would be very 
strongly in favor of that.
    Mr. Bilirakis. Mr. Adler?
    Mr. Adler. Yes, we completely agree. I think a lot of the 
issues that have been raised and that Director Bray and myself 
and FLEOA have been working on to address really are the result 
of a workforce that should be larger. You know, whether it is a 
health issue, it is a scheduling issue that we already hit 
upon, we would have more air marshals, better coverage.
    Then they will be in a situation where they can take their 
annual leave, vacation time. The number of health and medical 
issues would be reduced. And, obviously, we would have more 
people to better protect air travel and airplanes and other 
modes of transportation.
    So we fully support and recognize the real value to getting 
more air marshals within the service.
    Mr. Bilirakis. Thank you.
    One more question for you, Mr. Adler. How does the outreach 
conducted by the FAMS's leadership compare with outreach 
conducted by other agencies and departments in which you have 
members?
    Mr. Adler. Top-notch. You know, as I mentioned, we have 
65--over 65 different agencies. We have come a long way. And I 
have touched upon it in my statement.
    And not to reopen old wounds, but it wasn't the case back 
in 2003, 2004, 2005, where the director at the time wouldn't 
engage us, referred through the acronym for our organization as 
``fleas,'' and we have gone from that, you know, from the 
ridiculous to the sublime sort of thing and moved way past it, 
and now we have a great working relationship with the director.
    Comparatively speaking, we generally have open-door access 
with most other agency directors. The difference is, I don't 
think--I think what really distinguishes Director Bray and puts 
him in a top category with maybe three other directors is the 
sincerity, the ability to listen and act upon what is 
recommended, and the follow-through. I think he takes the 
recommendations that we bring to him.
    And, again, you know, every agency says they have their 
internal process to bring recommendations and raise them up 
through the ranks. They all have this process, this idea box, 
if you will. But the problem is, employees generally are 
reluctant to express their real views for fear of reprisal. If 
the supervisor doesn't like them, they are considered a 
troublemaker. And I think Director Bray had done a tremendous 
job getting past that, you know, that whole, ``Oh, maybe I 
shouldn't say something. It could hurt me.''
    I think the environment has changed, and greatly to his 
credit. And I think that is what really distinguishes him, 
whereas some of the other directors, it is more of a smoke-and-
mirrors relationship.
    Mr. Bilirakis. Very good. Thank you, sirs, for your 
testimony. And thank you for your service. And I also want to 
commend you for hiring veterans. And we can even push it up a 
little higher. Thank you.
    Mr. Adler. Thank you, sir.
    Mr. Carney. Thank you, Mr. Bilirakis.
    Just a quick question. Mr. Adler, are you related to Mr. 
Bray?
    [Laughter.]
    Mr. Adler. We are about the same height.
    Mr. Carney. I see. All right. All right. You know, it is 
not often we have somebody speak so favorably of a director. 
And that is to your credit, Mr. Bray, and it is--just struck 
me, frankly, from this position, because we don't see it very 
often.
    All right. Mr. Pascrell, for 5 minutes.
    Mr. Pascrell. We sure don't see it very frequently, but it 
is a good feeling to know that. I mean, I hope we can say that 
a year from now, and then it will be really good to say.
    Director Bray, who determines whether information is going 
to be categorized as sensitive security information or 
classified information? Who makes that determination? Just give 
me a brief answer, if you would.
    Mr. Bray. Sir, if there are any questions like that, TSA 
has an office. It is called the SSI office. They make that 
determination.
    Mr. Pascrell. So the sensitive security information is 
determined by the sensitive security office?
    Mr. Bray. Yes, sir. And there are some that is obvious. Our 
mission status, our flights that we are on, things like that, 
that is classified. And then there are others, as you say, at 
the SSI. And if there is any question about that, it would be 
referred to--for an opinion from the SSI.
    Mr. Pascrell. They have ultimate authority? In other words, 
that doesn't have to be certified by the director of TSA, the 
administrator?
    Mr. Bray. My understanding is no. I will get back to you on 
that.
    Mr. Pascrell. Let me ask you this question. You mentioned 
in your testimony the fact that check-in and boarding 
procedures have been modified to help preserve air marshal 
anonymity. Is that correct?
    Mr. Bray. That is correct. Yes, sir.
    Mr. Pascrell. The majority of those changes, though, 
require action on the part of the air carrier. Is that not 
correct?
    Mr. Bray. That is correct, sir.
    Mr. Pascrell. So that is out of your hands, basically, is 
it not?
    Mr. Bray. We work in concert with the air carriers through 
the aircraft operators security plan to set that up. And there 
was a long process to change it. That is why it took us a while 
to change the boarding procedures, because we had to work with 
all of our stakeholders in that plan.
    But, sir, yes, you are correct.
    Mr. Pascrell. What is being done to ensure that airline 
personnel are fully aware of these new procedures and are 
training their employees--are they training their employees on 
how to interact with air marshals in an appropriate manner? 
What is being done to get to the goal line?
    Mr. Bray. Sir, initially, we issued a security directive on 
this program. And then we also have aggressive outreach with 
the various airlines, as far as--and then we have feedback from 
the FAMs. If they have an issue, they can call our liaison 
section immediately and bring this up to our liaison section, 
who reaches out to their points of contact from the various 
airlines.
    But the issue we do see is the amount of turnover at the 
various gate agents that we deal with.
    Mr. Pascrell. On a scale of one to five, how would you say 
all, you know, the airlines are cooperating or not cooperating, 
five being the highest form of cooperation?
    Mr. Bray. I would say very close to five, sir.
    Mr. Pascrell. Very close to five?
    Would you agree with that, Mr. Adler?
    Mr. Adler. In terms of airline cooperation with not just 
the air marshals, but with the total law enforcement workforce, 
I would give them a lower rating.
    Mr. Pascrell. What rating would you give them?
    Mr. Adler. You know, it is a very frustrating point, 
because every airline and every airport is different in terms 
of how they engage us and interact with us. So one may get 
one--get a number one rating at one particular airport. One 
airline may get a two or a three.
    Mr. Pascrell. Are they consistent?
    Mr. Adler. No, they are not.
    Mr. Pascrell. So, in other words, it depends on which 
airport you go out of or come into, it is going to determine 
whether the--part of the determination of cooperation?
    Mr. Adler. Yes.
    Mr. Pascrell. Do you ever get any hostility from the 
carriers?
    Mr. Adler. Absolutely.
    Mr. Pascrell. Well, give me an idea of what kind of 
hostility. You know, you are providing service to the airlines. 
Some are going back to one we got rid of, rent-a-cop, you know? 
So you are giving service to the airlines. And what is the 
reaction at some of the airports?
    Mr. Adler. The reaction is, while they may publicize their 
intent where a passenger's safety comes first--and we all hear 
those announcements in the airport and on the planes--I think 
sometimes the reality tends to be different.
    And an example, to address your question, we have to 
interact with the gate. You know, there is obviously a showing 
of identification. They are required to indicate if other 
people are on the plane.
    And the thing is, in going through this process, and 
without my getting too specific on it, what happens is that, 
when they engage us, if we show identification, they may make a 
ridiculous display, hold up our credentials. Obviously, it is 
not the greatest environment, whether you are at the ticket 
counter----
    Mr. Pascrell. They hold up your credentials?
    Mr. Adler. They will hold them up----
    Mr. Pascrell. Do they make an announcement that there is an 
air marshal going onto the airplane and where he is seated?
    Mr. Adler. What they will do sometimes, they will--I will 
ask them, well, you know, about the boarding process and that 
has all been changed? They will sometimes call you on a P.A. 
system. They will say, ``Mr. Adler, please come to the 
counter.'' So everyone now obviously is looking, and now I 
sometimes think, ``Maybe I should start limping,'' as though I 
need pre-boarding, you know, help or something.
    Mr. Pascrell. And you have still got fellows that have not 
gotten their jobs back because they told us about certain 
situations? And here the airline is calling you out? Oh, okay.
    Thank you, Mr. Chairman.
    Mr. Carney. Thank you, Mr. Pascrell.
    Mr. Green for 5 minutes, please.
    Mr. Green. Thank you.
    Let's continue with something that was broached briefly, 
and that has to do with disciplinary action. It is generally 
perceived that, if you ought to have consistent disciplinary 
action, you have to have some codification of policies and 
procedures with reference to disciplinary actions or persons 
will perceive the actions taken with reference to discipline as 
unfair, because it can be argued that one person breached one 
rule and received a certain act of discipline and another 
received a different act of discipline.
    So can you tell me, do we have codified rules with 
reference the disciplinary actions and policies and procedures?
    Mr. Bray. We don't have specific codified rules that says, 
``If you do this, you will get this,'' because we engage what I 
call the whole person concept within the FAMs and TSA, to look 
at--if you have been in one airport, you have been in one 
airport. Everything is different. You can't put a set of rules 
in for each action.
    But we have general parameters that we view. And, as I 
said, we have the policy compliance unit and the office of 
inspection that review the action. And they make the 
recommendation on the proposed discipline. And then it is 
reviewed by these supervisors in the offices and the office 
supervisors at headquarters to look at that, as I said earlier.
    But we do have certain rules, like I said, when a person is 
arrested for DUI, it is normally, barring exigent 
circumstances, would be 30 days off----
    Mr. Green. If I may, is it your opinion that the 
disciplinary actions are consistent across the force with this 
paradigm that you have?
    Mr. Bray. Sir, I believe it is as consistent as an 
organization our size can make it and with the number of 
officers we have across the country. I meet with the people 
that run the policy compliance unit on a very regular basis to 
go over just what you are talking about, to ensure that the 
discipline that has been meted out under my watch is 
consistent.
    So we are making strides on that. We constantly look at 
that. And we discuss--and as I said earlier, we had a 3-day 
training session for all of our frontline supervisors, just on 
that--one of the topics covered was that very issue, to make 
sure that the discipline for one person who say they have 
missed a flight was equivalent to the person that--another 
person that missed a flight.
    And we try--there are always exigent circumstances. The 
reason why we have to look at on a very case-by-case basis, 
because there are always exigent circumstances.
    Mr. Green. Would it surprise you to know that police 
departments do codify these things and that they probably get 
fairly good results as a result of codification? Would it 
surprise you to know this?
    Mr. Bray. No, sir. That would not surprise me.
    Mr. Green. Let me move quickly to another area. We talked 
briefly about the stats. And I have been accorded some 
information that I would like to just go over with you.
    We talked about the SES positions. And I would like to ask 
you now about females who are in the SES positions. How many 
females do we have?
    Mr. Bray. Off the top of my head, two, sir.
    Mr. Green. Two?
    Mr. Bray. Sorry. Off the top of my head, two, sir.
    Mr. Green. And when were they hired, please?
    Mr. Bray. Both were at the beginning of the organization.
    Mr. Green. At the beginning? Would that be prior to April 
19, 2009?
    Mr. Bray. I am sorry, sir. I believe it is three now.
    Mr. Green. Three?
    Mr. Bray. Yes, sir.
    Mr. Green. And were they hired prior to April 19, 2009?
    Mr. Bray. Yes, sir, they were.
    Mr. Green. Okay. Are you allowed to give their names and 
not--I don't want you to give them out here, but after the 
hearing? Are you allowed to give their names?
    Mr. Bray. Absolutely, sir.
    Mr. Green. I ask because there may be some incorrect 
information that I would like to have an opportunity to correct 
that connotes that, with reference to females, yes, you have 
some. But let me go even further and ask you about minority 
females. How many do you have?
    Mr. Bray. Sir, I don't know that off the top of my head. I 
have some data in front of me that shows minority--that shows 
that we have--of all FAMS, 167 females within the organization.
    Mr. Green. Would it surprise you to know that you have 
zero?
    Mr. Bray. Zero supervisors?
    Mr. Green. SES, minority females.
    Mr. Bray. No.
    Mr. Green. Would it surprise you to know that you have zero 
Hispanic females, zero Pacific Islanders, zero Alaskan natives?
    Mr. Bray. Sir, no, but if I could comment for a minute on 
that--we do have a diversity program within our organization. I 
attended and we did work with the women in federal law 
enforcement to do a barrier analysis on why that very--on those 
issues that you are rising, have arisen within the organization 
and as--and we would be happy to deliver that very analysis 
study to you.
    Mr. Green. Because my time is almost up, would it surprise 
you to know that you have zero African-American?
    Mr. Bray. SES, sir?
    Mr. Green. Yes, sir, SES.
    Mr. Bray. That is not correct, sir.
    Mr. Green. All right. Okay. Well, I would like to, at the 
end of the hearing, get that information.
    Mr. Bray. We will provide you with the great statistics.
    Mr. Green. Thank you. Thank you.
    Mr. Carney. Okay, the chair now recognizes the gentlelady 
from Ohio, Ms. Kilroy, for 5 minutes.
    Ms. Kilroy. Thank you, Mr. Chair.
    Mr. Director, I would like to follow up on some of these 
questions with respect to the hiring practices and diversity in 
the ranks of the air marshal service. Do you have hiring and 
retention goals for retaining a diverse employment in the air 
marshal services, to receive employment in the air marshal 
services?
    Mr. Bray. First, it is necessary for me--our hiring is 
managed by the TSA office of human capital, so they manage our 
initial hiring or recruitment and our personnel, as far as pay 
and those kind of matters. But we do have a very strong, I 
think, diversity outreach program.
    I attended, as I said earlier, the women in federal law 
enforcement conference in Tucson, Arizona, recently. Sunday, I 
leave to attend the National Organization of Black Law 
Enforcement Executives down in Norfolk. We have a very large 
contingent that attends. I think we have almost the largest 
contingent from any law enforcement agency that attends these 
diversity conferences.
    We do that to recruit people. We do that to let everybody 
know that we think we have a great organization, that you would 
be valued if you work here. So we do a great deal of outreach.
    We have worked with the White House initiative on 
historically black colleges and universities for recruiting. 
And we do have an active recruiting program.
    Our issue that you are referring to as far as statistics is 
the way the agency was stood up. When the agency was stood up 
in 2002, we were under a mandate to quickly hire a large number 
of people. And at that time, the direction that was taken was 
to hire a large--was to focus on people with former law 
enforcement experience. That really narrowed the pool of people 
that were--who were eligible for that--our jobs.
    So now we have greatly expanded our pool. So like I said, 
last year, we hired 38 percent veterans. We do recruit actively 
in minority programs. And so we are trying to make progress, 
but we don't have that much turnover.
    Ms. Kilroy. Can you explain to me quickly what your hiring 
authority is vis-a-vis TSA and how that works?
    Mr. Bray. Well, we are an integral part of TSA, so TSA--
last year, we used to do our own hiring under a private 
contractor. Now, for efficiency of government, to enable us to 
focus on our mission more fully, that was assumed by the TSA 
office of human capital under another private contract, where 
they recruit nationwide.
    Ms. Kilroy. And who is the private contractor?
    Mr. Bray. The private contractor now is Lockheed Martin.
    Ms. Kilroy. In implementing the agency's operations, how 
are you utilizing new threat information to modify flight 
coverage goals and the flight schedules of the air marshals?
    Mr. Bray. Every day, we have either in person or a 
teleconference with other senior leaders throughout the federal 
government to go over that very information.
    And based on that, we have a transportation security 
operations center who does our flight scheduling, and they also 
are a 24/7 domain awareness center for all of TSA. They monitor 
the aviation environment and many other environments, the 
national infrastructure protection of the organization, and 
they focus on the mission scheduling.
    As you saw in 2006, when we had the London liquid aerosol 
gel threat, on American carriers that were destined for the 
United States, there was a plot to blow up airlines en route to 
the United States. At that time, we had a very small handful of 
federal air marshals in Great Britain.
    And overnight, through the flexibility we have in our 
scheduling program and the people we have out at the freedom 
center, we were able to get a large number of federal air 
marshals to handle all the flights from Great Britain to the 
United States for a period of time until the threat subsided 
with a number of arrests over there.
    And we do have that flexibility. We are an intel-driven, 
risk-based operation, so we do routinely, on a very routine 
basis, examine where we are flying and go over our flights with 
the intel community to see what areas we should be covering, 
whether it is domestically or internationally.
    Ms. Kilroy. And that information gets out to the air 
marshals that are on the front lines?
    Mr. Bray. Yes, especially for the air marshals flying 
internationally, we have threat briefings for them.
    Ms. Kilroy. Okay. I think my time--I yield back.
    Mr. Carney. Okay.
    I think we will do one quick round of questions. Votes will 
be called in about 15 minutes or so; that is the last word.
    And, Mr. Bray and Mr. Lord, what would you say would be the 
optimal number of FAMs to have across the system?
    Mr. Bray. I think in the studies--I think in the studies we 
have done, it would be approximately double what we have right 
now.
    Mr. Carney. Approximately double? Approximately double? Mr. 
Lord?
    Mr. Lord. First of all, I don't have a number, but I think, 
in answering that question, you have to evaluates FAMS's 
contribution to providing security relative to other related 
protective measures, such as hardening of cockpit doors and 
arming flight crews. I don't think you can answer that question 
in isolation without taking a more holistic approach to this.
    Also, I always pose the question--the FAMs are really doing 
their job. They are invisible to the flying public. So the 
question I have is, obviously, people know they are out there. 
They don't know who they are provides a deterrent value.
    Could you achieve the same deterrence level, yet reduce 
numbers? Kind of a different question. You know, if--since they 
are invisible to the flying public, could you achieve the same 
level of deterrence with a different level, whatever it is?
    Mr. Carney. That was actually my next question.
    What do you think, Mr. Bray? And I know you would probably 
say no, but----
    Mr. Bray. I would oppose that. I think that would decrease 
our flexibility to be able to respond to incidents such as 
either Hurricane Katrina, where the New Orleans airport was 
shut down. We had to restore order down there. And when you saw 
all the people that were being airlifted off the roofs and 
deposited at the airport, there was no plan.
    Several hundred FAMs went down there, restored order. They 
also helped all these people who were either injured or infirm 
get on flights out of the area so they could be helped 
medically or otherwise in other areas. We would lose that 
flexibility.
    And I think the enhancement that you have talked about here 
with the number of FAMs and our possible changes to our pay 
would greatly enhance this organization.
    Mr. Carney. Okay.
    Mr. Adler, I was kind of struck by your narrative about you 
getting called to the gate, that sort of thing, to show your 
credentials. Obviously, that is horrible and it shouldn't 
happen.
    Now, can you provide the chair at some point very soon kind 
of a list of those airlines that do it well and those who 
aren't so good at protecting your anonymity?
    Now, I also sit on the Transportation Infrastructure 
Committee, so, you know, that really kind of steps in both of 
my areas of interest. So, please, provide that. I would 
certainly hate to see that that is kind of--either a problem 
within an airline's policy or perhaps it is just, you know, 
some desk person who doesn't really understand what is going on 
here.
    But if there is kind of a trend in some airlines versus 
others, that we really need to know that if we are going to 
protect the flying public. So I really appreciate that.
    Mr. Bray, you know, following the lines of the questions in 
terms of hiring minorities and females, how many, for example, 
female applicants do you get annually? How many minority 
applicants do you get annually?
    Mr. Bray. Sir, I don't have that information in front of 
me. We can provide it.
    If I can segue for just a minute----
    Mr. Carney. Sure.
    Mr. Bray. --there is a boarding--different boarding 
procedure for federal air marshals than there is for other 
federal law enforcement officers. So without going any further, 
I need to emphasize that. And we will get you the statistics on 
our applicants.
    Mr. Carney. Okay. Thank you so much.
    Mr. Bilirakis?
    Mr. Bilirakis. Just one question, Mr. Chairman, for the 
panel, well, for Mr. Adler.
    The Government Accountability Office interviewed 67 air 
marshals from 11 field offices while conducting its survey. GAO 
reported that all individuals interviewed commented favorably 
about the workforce enhancements made by the Federal Air 
Marshal Service. Please discuss the improvements your members 
have experienced over the last several years.
    Mr. Adler. Well, one of the issues we have been speaking 
about, which is just freedom of speech in and of itself, has 
been a tremendous, well, factor into increasing morale and has 
improved.
    Prior to Director Bray, Director Brown was on. He did a 
very good job, as well. And he inherited what I have referred 
to earlier as the splinted workforce. He sort of got--kind of 
overcame that very repressed, sort of--you know, I refer to it 
as Dean Wormer from ``Animal House'' sort of environment, where 
you feel like you are under double-secret probation.
    So, certainly, first and foremost, being valued for what 
you do was something that came about that was a very positive 
change.
    I think scheduling was a big issue, and it comes back to 
your earlier question, in terms of, do we need more air 
marshals? You know, the big--the number-one issue we were 
wrestling with, probably even prior to Dr. Bray coming on, was 
the scheduling dilemma and how it impacted the air marshals in 
terms of their quality of life, their health issues, leave, and 
even just the attrition rate, how it would impact. And they 
would say, ``Well, I am going to go to another law enforcement 
component within DHS, and I will work Monday to Friday, have a 
nice take-home car, and it is just a different lifestyle.''
    So I would say that their commitment to working the 
schedule--and some of the things that Director Bray discussed, 
such as implementing training or other ground-based 
assignments, so you don't have an air marshal flying 5 days 
straight and just being completely exhausted.
    I mean, everyone up here knows the airlines do not run on 
time consistently. So I think the question--it was a question 
earlier that maybe Congressman Green has asked in terms of the 
down time.
    It is such a crazy existence, because I have seen air 
marshals literally land and have to run to catch a flight, only 
to get there and then maybe find out it is delayed, or maybe 
the plane isn't, in fact, in the hangar. And it is just such a 
kind of ``fly by the seat of your pants'' sometimes existence 
because of the nature of the airline scheduling.
    So I think the improvements have been recognizing the 
impact that the rough schedule has and coming up with these 
other assignments, encouraging people to express their views, 
whether it is the breakfast function that Director Bray does.
    He also engaged us--and Director Brown did this, as well. 
Director Brown set up a forum where we set up a FLEOA air 
marshal working group, and we have representatives from across 
the country come down and meet with the director. Director Bray 
has continued that forum. That was also a very positive 
improvement, in terms of the workforce there.
    Mr. Carney. Any further questions?
    Mr. Bilirakis. I yield back.
    Mr. Carney. Okay, thank you.
    Mr. Green?
    Mr. Green. Surely. Thank you, Mr. Chairman.
    Mr. Bray, if you find when you peruse your statistics that 
you have a dearth of female applicants, I would be interested 
in knowing why. I would be interested in knowing if there has 
been some conclusion that females don't want to do this type of 
work. I would be interested in knowing how you go about the 
process of publishing your applications. I would have any 
number of questions about why you have a dearth of female 
applicants.
    Mr. Bray. We will get that information to you. But as I--we 
did do a barrier analysis on why we don't have enough female 
applicants. And we--there were many interesting points in 
there. One of those is how the organization was stood up. 
Another is perception of the applicants.
    Mr. Green. But what does that mean, how the organization 
was set up?
    Mr. Bray. When there was a great emphasis on law 
enforcement experience to be eligible for the job in 2002----
    Mr. Green. Which would then connote a dearth of--well, 
fewer females, because you have more males that are already in 
the field? Is that what you are saying?
    Mr. Bray. With law enforcement experience, yes, sir.
    Mr. Green. Right. So you start out with a concern, if you 
will, with reference to females being fairly represented in the 
applicant pool.
    Mr. Bray. Correct. Part of it is perception of the 
applicants of the agency, that it is all just flying, and it is 
very mundane, but we saw a great difference--a divide versus 
the people who were--the females who are on board and doing the 
job. They look upon the job very favorably. So part of it is 
the communication of how we advertise and recruit.
    But as far as how we do advertise the job, it goes on the 
OPM Web site, opm.jobs, along with everyone else, so it is out 
there for everyone to look at.
    Mr. Green. Thank you.
    Let me ask Mr. Lord a question rather quickly. Mr. Lord, 
sir, do you maintain statistical information on the number of 
female applicants or the number of females who are currently 
serving?
    Mr. Lord. Yes, we maintain statistics on the number of 
female employees currently employed at our agency at multiple 
levels of the organization.
    Mr. Green. Are you familiar with the position that I called 
to your attention, the SES position?
    Mr. Lord. I am familiar with the position, since I am one 
of them, but as far as how many female SES we have, I would 
have to get that to you.
    Mr. Green. Do you know of any that are African-American?
    Mr. Lord. Yes.
    Mr. Green. SES?
    Mr. Lord. Yes.
    Mr. Green. Any that are Hispanic?
    Mr. Lord. Yes.
    Mr. Green. Okay. Let me go back to you, Mr. Lord, with this 
question. You posed the question of deterrent by virtue of the 
means by which the employees actually perform their service. 
And your question, your query is whether or not we might reduce 
the force because of the means. Is that correct?
    Mr. Lord. Yes, I just phrased the question?
    Mr. Green. I would like for you to answer that question, if 
you would.
    Mr. Lord. Okay. I am sorry. Could you repeat it again, sir?
    Mr. Green. Well, the question that you asked yourself.
    [Laughter.]
    Mr. Lord. What is the right level? What is the right 
number?
    Mr. Green. No, you made the statement. Your basic premise 
was, given that they secret themselves on the plane, given that 
they are not readily identifiable, because of the deterrent 
impact of knowing that they may be on the plane, can we reduce 
the force? I think that accurately reflects your commentary. Is 
that a fair statement?
    Mr. Lord. Yes, sir.
    Mr. Green. Okay. Now, answer that question. You posed it.
    Mr. Lord. My position was it is important to ask that 
question. I would have to think about that a little more 
carefully before offering any option on what is the appropriate 
level. I think--but I think it is important to think about when 
considering any proposal----
    Mr. Green. In thinking about it, let me ask you this. If we 
do this--let's assume that we impact--we maintain the same 
level of deterrent, we will, in fact, as a matter of fact, 
diminish the level of response because we will have fewer 
people. True?
    Mr. Lord. You could--that is a fair argument.
    Mr. Green. Now, listen now. You are going to force me to 
ask you some other questions that will cause you to say yes to 
that. Now, if you have fewer people and if you have incidents 
that you have no way of controlling and you have no way of 
knowing where they will occur, you have to conclude, as a 
matter of fact, that you are going to reduce the opportunity to 
respond with a physical person who is a trained air marshal?
    Mr. Lord. Yes, I will agree with that.
    Mr. Green. Okay. All right.
    I thank you, Mr. Chairman. I yield back.
    Mr. Carney. Thank you, Mr. Green.
    Ms. Kilroy?
    Ms. Kilroy. Thank you, Mr. Chairman. As a member of the 
flying public and, with this job, a rather frequently flying 
public, I have got to say, I have to agree with some of the 
poll participants in the poll that we received who indicate 
that they place a high value on having air marshals on the 
flights, and that it provides a certain measure of confidence 
in the air flying public knowing that we have, I hope, a fully 
staffed air marshal service.
    And I certainly would not want to see us have to reopen the 
kind of debates over--of whether or not we should have armed 
pilots or other airline officials on planes, because they get 
worried because we have a decrease in the air marshal service. 
That is not a law enforcement opinion, just the opinion of 
somebody who flies and has listened to some of the debate over 
the years.
    And I apologize if this issue has already been covered, Mr. 
Chair, but the issue of communication ability between the 
federal air marshals on flights or air and air-to-ground 
communications, I understand that air marshals have reported 
experiencing frequent failures from their personal digital 
assistants, their PDA communication devices.
    And I wanted to know how the air marshal service is 
responding to that reported problem and makes sure that 
necessary communications in the case of an incident and request 
for help, that that can be there for the air marshals.
    Mr. Bray?
    Mr. Bray. So we do have a contract with the carrier, and 
the carrier will begin issuing the new devices. And the federal 
air marshals in the various offices will have an option of 
several devices that they can choose.
    So previously they only had one device, and that device was 
last issued in 2005. It should have been replaced in 2008 at 
the latest. So, for a variety of budgetary reasons, it is not 
being replaced until now, but the replacement is underway.
    And the good news about that is, is that now, under the 
contract, we have devices that will be replaced by the vendor 
every 2 years. They will no longer have the program where a FAM 
is using an obsolete device.
    The other ancillary portion of that is, you mentioned the 
air-to-ground program, which--and, you know, we all fly, and we 
are all aware that there is a commercial service being 
installed on all--on most major carriers, starting now, and it 
will take a couple years to be installed, but we have worked 
with all the carriers and the provider of that service to get 
what they call the FAMs priority service so that, if they have 
an incident on the plane, they need to report to either the 
federal air marshal operations center or their field office. 
They will be able to do that.
    Because what we are concerned about is that, if we have a 
9/11, we want to be able to communicate both ways, either have 
them report to us or we report to them. And, obviously, if 
there is a 9/11, that service will be overwhelmed, so we have 
to have an ability to cut through the chatter, if that is what 
you want to call it, and give our FAMs the ability to 
communicate.
    So we think, with the new devices and with the services 
being rolled out that we will be subscribers to, and the 
priority service, that we will have a good, robust service for 
the federal air marshals.
    Ms. Kilroy. I think, mentioning 9/11, one of the lessons 
that I think law enforcement, public officials need to take 
away from that is that communications during an emergency is of 
the highest importance. And interoperability and, in this case, 
even between air marshal to air marshal on a flight, needs to 
have a high importance.
    Mr. Bray. I completely agree with you. And that is one 
purpose for our--when I talked about earlier, about our freedom 
center, our operations center, which is a 24/7 center in 
northern Virginia, they have people from the FAA, customs and 
Border Patrol, Secret Service, NORAD, others, the Department of 
Defense, so we have that environmental awareness.
    If any incident occurs throughout our domain, through the 
aviation domain or any other domain that we are concerned with, 
we get very quick reporting into the operations center. And 
then part of the job is to get it back out to our federal air 
marshals, our federal security directors, and everyone that was 
in TSA to make them aware that something is happening in L.A. 
or something has happened on a plane, and we want everyone else 
to raise their awareness of that incident. So that is one of 
our core missions.
    Ms. Kilroy. Thank you. Appreciate that.
    Yield back.
    Mr. Carney. Thank you, Ms. Kilroy.
    I will end my questions on this. This is for everybody in 
the panel. You guys have come a long way, Mr. Bray, and I am 
very pleased to say that, and you should be proud.
    And I just wanted to get a sense from everyone, what do we 
need to do? What else is--you know, we always know we can 
always do more. What are your priorities? Where do you think we 
ought to be, Mr. Lord and Mr. Adler?
    So, Mr. Bray, please?
    Mr. Bray. I think we have discussed them. We need to focus 
on workforce enhancement. We need to continue to focus on the 
ability to train our people.
    Mr. Carney. Workforce enhancement, such as?
    Mr. Bray. Training.
    Mr. Carney. Okay.
    Mr. Bray. Training, the administration proposal for 1881. 
And Jon and I--Jon Adler spoke about that, to continue to build 
our workforce for the future, to give them all the morale-
building items, whether it is the training, the workforce, and 
continue to engage our workforce to build for the future.
    We have made great progress, but we can't ever think that 
we are finished. I think, as our opposition changes, as the 
terrorists change their tactics, we have a training element. We 
need to get that out to the workforce to make sure they are 
aware of the new things that are occurring, whether it is the 
bombings in Indonesia or the assaults in Mumbai, and we had 
FAMs in Mumbai when that occurred.
    So the first thing we do is make sure that they are okay, 
that they are safe, and work with the airlines to get them out 
of there.
    So those are the issues I try to focus on during my tenure.
    Mr. Carney. Mr. Lord?
    Mr. Lord. We commend Director Bray for adopting a 
continuous improvement philosophy and maintaining the 36 task 
teams devoted to various improvement areas. We think that is 
really important to sustain the progress that was initiated 
under the former director.
    Mr. Carney. Mr. Adler?
    Mr. Adler. I think it is continuing with all the progress 
that we have all discussed today and all the very positive 
things Director Bray has done.
    But in addition to it, in going back to Ranking Member 
Bilirakis' comment in terms of the need for more air marshals, 
we are going to fully support that, in terms of increasing the 
number of bodies and the funding. That would obviously 
alleviate and address some of these issues. So I think that 
would certainly help, as well.
    And, also--and I think, coming back to Congressman Green's 
point, in terms of addressing Mr. Lord on the question of 
deterrence and so forth, I think the perspective that needs to 
be maintained--and I think Congressman Green hit it was, not 
only are air marshals providing a deterrent effect, a role, 
they are also a response vehicle to respond if something 
happens. And that needs to be considered, as well.
    In terms of measuring how effective they are, it is 
important to keep sight on not only the scorecard in terms of 
how many times or how many incidents occur, but how well 
trained and able are they?
    And if you look at the training, they are probably, in a 
tactical sense, the best trained in federal law enforcement. 
They need to maintain that level of training so they can 
respond and they can do what the public expects them to do and 
maintain that public confidence through superior training, 
proper scheduling, taking care, and addressing health issues, 
and keeping the workforce at a size that is workable, where we 
don't hit the wall and suddenly collapse.
    Mr. Carney. Very good.
    I want you all to know that this committee and subcommittee 
is very open to working with you. We want to make sure that the 
flying public is safe. And we know that there are sometimes 
constraints on candor, in terms of actually saying publicly 
what you need, in addition to what you are allowed to have, but 
don't ever hesitate to let us know that.
    With that, Mr. Bilirakis?
    Mr. Bilirakis. Just wanted to thank the presenters on a 
very productive, informative hearing. Great questions from the 
panel, as well. And we will pursue this, and we want to 
continue the conversation.
    Thank you very much.
    Mr. Carney. Mr. Green, any further questions?
    Mr. Green. No further questions, but I do appreciate the 
opportunity to express my gratitude to those who serve and to 
Mr. Bray. Tough job, difficult circumstances. Great 
appreciation for what you do. And, of course, I am always in 
awe of what the people who monitor, Mr. Lord, are capable of 
providing by way of intelligence.
    I thank you, each of you.
    And, Mr. Adler, thank you for your comments, as well.
    Mr. Carney. Ms. Kilroy?
    Ms. Kilroy. --communicated and ask that you communicate 
that to the air marshals who do the job, who fly every day. I 
understand sometimes there may be morale issues or they may 
think they are anonymous and unseen and unappreciated, but at 
least today let them hear from us that that is far from the 
case.
    Thank you.
    Mr. Carney. Okay, thank you.
    And I do want to thank all three of you for your valuable 
testimony and certainly members for their questions. As Mr. 
Bilirakis said, there were good lines of questioning today.
    The members of the subcommittee may have additional 
questions for you. And if they do so, please respond in writing 
quickly. Don't let it hang out there. We get a little bit antsy 
about stuff like that.
    But with that, we stand adjourned. Thank you.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]

                             For the Record

   Prepared Opening Statement of the Honorable Bennie G. Thompson, a 
Representative in Congress from the State of Mississippi, and Chairman, 
                     Committee on Homeland Security

    Since the tragic events of 9/11 and the increased dependence on the 
Federal Air Marshal Service, the Service has faced a series of 
personnel challenges including:
         Staffing up from 33 Marshals to thousands;
         Putting effective and well communicated personnel policies in 
        place that empower and aide the Marshals, not hinder;
         Recognizing the variety of skill sets and experiences the 
        employees bring to FAMS and ensuring the effectiveness of their 
        training;
         Ensuring the workforce can report waste, fraud, abuse and 
        concerns without fear of retaliation; and
         Confronting on-going qualify of life issues for the growing 
        workforce.
    Addressing these challenges has not been easy. But I think it's 
safe to say that the FAMS has come a long way.
    After a downward spiral with countless complaints and concerns, the 
Service realized that they needed to turn the corner and fix the 
considerable damage that had been done to its workforce morale and 
reputation.
    Steps have been taken to engage the workforce and also to produce 
better policies on schedules, flight check-ins and boarding, dress 
codes and other matters. While better, there is always room for 
improvement.
    Now, we are faced with charting a way forward.
    To do so, the Service needs to properly oversee the execution of 
its improved policies and refine them as necessary. FAMS must have a 
proper and fair personnel system, with clear policies and adequate 
tools and resources. They must continue to recruit the best and the 
brightest and diversify its ranks--not only among the Air Marshals but 
in Management positions.
    Further, the connection and collaboration between Headquarters and 
Field Offices should strengthen and stovepipes must be abolished. FAMS 
must continue to communicate, engage and empower its employees.
    And lastly, I would be remiss if I did not raise the fact just two 
weeks ago the Full Committee passed the Transportation Security 
Workforce Enhancement Act. This bill would provide employee protections 
and rights to ALL employees of TSA, including the Air Marshals. All TSA 
workers need to have whistleblower protections in the name of 
security--so that they are able to report security concerns without 
fear of losing their jobs or retaliation. They also deserve the right 
to collectively bargain over items such as uniforms, access to 
training, leave selection procedures and overtime--this affords them an 
active voice in their workplace while providing and maintaining the 
needed flexibility for scheduling and other matters by management. 
Nearly 69,000 federal law enforcement officers currently have these 
rights.
    I look forward to listening to our witnesses' testimony today and 
understanding their thoughts about the progress FAMS has made in 
regards to its workforce and workforce policies. But most importantly, 
I hope to learn and engage in a discussion on where we can all go from 
here.
    Thank you.

                                 <all>

</pre></body></html>
